<html>
<title> - CHECKPOINT OF THE FUTURE: EVALUATING TSA'S INNOVATION TASK FORCE INITIATIVE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






   CHECKPOINT OF THE FUTURE: EVALUATING TSA'S INNOVATION TASK FORCE 
                               INITIATIVE

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                           TRANSPORTATION AND
                          PROTECTIVE SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 27, 2017

                               __________

                           Serial No. 115-14

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-292 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
 


















                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
John Katko, New York                 Bonnie Watson Coleman, New Jersey
Will Hurd, Texas                     Kathleen M. Rice, New York
Martha McSally, Arizona              J. Luis Correa, California
John Ratcliffe, Texas                Val Butler Demings, Florida
Daniel M. Donovan, Jr., New York     Nanette Diaz Barragan, California
Mike Gallagher, Wisconsin
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
                   Brendan P. Shields, Staff Director
             Kathleen Crooks Flynn,  Deputy General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

         SUBCOMMITTEE ON TRANSPORTATION AND PROTECTIVE SECURITY

                     John Katko, New York, Chairman
Peter T. King, New York              Bonnie Watson Coleman, New Jersey
Mike Rogers, Alabama                 William R. Keating, Massachusetts
Clay Higgins, Louisiana              Donald M. Payne, Jr., New Jersey
Brian K. Fitzpatrick, Pennsylvania   Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Krista P. Harvey, Subcommittee Staff Director
         Cedric C. Haynes, Minority Subcommittee Staff Director
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Transportation 
  and Protective Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bonnie Watson Coleman, a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Transportation and Protective Security:
  Oral Statement.................................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               Witnesses

Mr. Steve Karoly, Acting Assistant Administrator, Office of 
  Requirements and Capabilities Analysis, Transportation Security 
  Administration, U.S. Department of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Roosevelt Council Jr., General Manager, Hartsfield-Jackson 
  Atlanta International Airport, Department of Aviation, City of 
  Atlanta, Georgia:
  Oral Statement.................................................    11
  Prepared Statement.............................................    14
Ms. Jeanne M. Olivier, A.A.E., Assistant Director, Aviation 
  Security and Technology, Security Operations and Programs 
  Department, The Port Authority of New York and New Jersey:
  Oral Statement.................................................    16
  Prepared Statement.............................................    17

                                Appendix

Questions From Chairman John Katko for Steve Karoly..............    35
Questions From Ranking Member Watson Coleman for Steve Karoly....    36
Questions From Chairman John Katko for Roosevelt Council, Jr.....    37
Questions From Chairman Michael T. McCaul for Jeanne M. Olivier..    38

 
   CHECKPOINT OF THE FUTURE: EVALUATING TSA'S INNOVATION TASK FORCE 
                               INITIATIVE

                              ----------                              


                        Thursday, April 27, 2017

             U.S. House of Representatives,
                Subcommittee on Transportation and 
                               Protective Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:32 p.m., in 
room HVC-210, Capitol Visitors Center, Hon. John Katko 
(Chairman of the subcommittee) presiding.
    Present: Representatives Katko, Rogers, Higgins, 
Fitzpatrick, Watson Coleman, and Payne.
    Mr. Katko. The Committee on Homeland Security Subcommittee 
on Transportation and Protective Security will come to order.
    Before we begin, I would like to acknowledge a couple of 
distinguished guests here today: Mr. Costello Coleman and Mr. 
Anthony Devone. Both of them are students from Friendship 
Collegiate Academy here in the District of Columbia, and one of 
them I am trying to get to go to Syracuse University, so we 
will have to see how that goes.
    The subcommittee is meeting today to examine the 
implementation of the Transportation Security Administration's 
Administrative Task Force initiative. In addition to TSA, we 
will also hear from airport stakeholders that have partnered 
with the task force.
    I now recognize myself for an opening statement.
    I would like to welcome everyone to the Subcommittee on 
Transportation and Protective Security's hearing to examine the 
state of TSA's Innovative Task Force initiative. Many of us 
here are all too familiar with the struggles TSA has faced over 
its 15-year history to field cutting-edge technology and 
security solutions in a timely manner to meet the ever-evolving 
threat landscape.
    A year ago, then-Administrator Neffenger launched the 
Innovative Task Force initiative in an effort to inculcate a 
culture of innovation into how the organization thinks about 
meeting the challenges of current and evolving threats. I 
commend the former administrator for starting this critical 
effort, and I support the important mission of this initiative.
    However, it is the committee's job to make sure that the 
task force is meeting its stated goals and has the resources it 
needs. With effective oversight we can all work together to 
ensure that the positive momentum created by the Innovative 
Task Force initiative, or ITF, continues and that the lessons 
learned are not confined to a vacuum, but instead both support 
and inform the broader mission and goals of the TSA as a whole.
    What is most important is that TSA leverages the work of 
this initiative to guarantee to the American people that future 
procurement decisions are a sound investment of taxpayer 
dollars and that the technology TSA procures is capable of 
detecting the latest threat.
    While the Federal Government is ultimately responsible for 
delivering on the secure freedom of movement throughout the 
Nation's transportation systems, the effectiveness of the 
security framework surrounding that movement hinges on the 
private sector's commitment to innovation and continuous 
development of the new security technologies to screen millions 
of passengers and bags every day.
    However, quality innovation comes with a hefty price tag, 
and we cannot reasonably expect the private sector to spend 
millions of dollars in the research and development of new and 
emerging technologies without greater transparency and 
communication from both TSA and the Department of Homeland 
Security.
    Currently, TSA is focusing on deploying automated screening 
lanes across 21 of the Nation's largest airports. Automated 
screening lanes should help reduce passenger queues at the 
checkpoint.
    As we have seen with recent attacks around the world, 
terrorists are increasingly targeting public spaces with large 
crowds of people to inflict the maximum number of casualties, 
and anything we can do to reduce that target is a good thing. 
Thus, the automated screening lanes can serve to enhance the 
passenger experience, ease the burden on TSOs, and eliminate 
security vulnerabilities.
    When thinking about how to build the checkpoint of the 
future, TSA should strive to meet all of these goals when 
acquiring new technology and proposing new solutions. However, 
to accomplish this we need to reach far beyond automated 
screening lanes.
    This is why I am pleased that the ITF has plans to pilot 
C.T. X-rays at passenger checkpoints and venture into biometric 
authentication technology and innovations in passenger 
communication all before the end of the summer travel season. 
That is a laudable goal.
    I am also optimistic about TSA's efforts to connect 
industry with airport operators across the country to 
facilitate innovation in other aspects of transportation 
security outside the checkpoint, such as employee screening and 
biometric bag drop. However, we can and should be doing more.
    All of these demonstrations and pilots will be wasted if 
they fail to inform the administration's Strategic Five-Year 
Technology Investment Plan or enhance TSA's somewhat troubled 
procurement process. I hope when the next administrator is 
appointed he or she will continue to build on the progress of 
the task force and better integrate its work across TSA and DHS 
as a whole to leverage its successes.
    I believe that we are behind the curve concerning our 
technology innovation, particularly with respect to what is 
going on in Europe in some places, and the traveler experience 
at our Nation's airports. Many foreign airports have 
implemented improved security scanners, better biometric 
capabilities, and smarter systems for passenger queuing to meet 
the emerging threats in a timely manner.
    I look forward to hearing the perspectives of our witnesses 
on how TSA and its industry partners are working together to 
bring more innovative solutions to transportation security and 
what more needs to be done to meet this goal. I encourage all 
of the witnesses today to be candid about how the scope of this 
initiative can be expanded.
    It is not often when we ask these questions that we are 
going to today: What else could you use to make your job 
better? We are going--we are going to be asking questions like 
that because we want to know. We want to know how DHS and TSA 
can better support this task force.
    With that, I am pleased to recognize the Ranking Member of 
the subcommittee, my friend and the gentlelady from New Jersey, 
Mrs. Bonnie Watson Coleman, for her opening statement.
    [The statement of Chairman Katko follows:]
                    Statement of Chairman John Katko
                             April 27, 2017
    I would like to welcome everyone to the Subcommittee on 
Transportation and Protective Security's hearing to examine the state 
of TSA's Innovation Task Force initiative. Many of us here are all too 
familiar with the struggles TSA has faced over its 15-year history to 
field cutting-edge technology and security solutions to meet the ever-
evolving threat landscape.
    A year ago, then-Administrator Neffenger launched the Innovation 
Task Force initiative in an effort to inculcate a culture of innovation 
into how the organization thinks about meeting the challenges of 
current and evolving threats. I commend the former administrator for 
starting this critical effort, and I support the important mission of 
this initiative.
    However, it is this committee's job to make sure that this task 
force is meeting its stated goals, and has the resources it needs. With 
effective oversight, we can all work together to ensure that the 
positive momentum created by the Innovation Task Force initiative 
continues and that the lessons learned are not confined to a vacuum, 
but instead both support and inform the broader mission and goals of 
TSA as a whole. What is most important is that TSA leverages the work 
of this initiative to guarantee to the American people that future 
procurement decisions are a sound investment of taxpayer dollars and 
that the technology TSA procures is capable of detecting the latest 
threat.
    While the Federal Government is ultimately responsible for 
delivering on the secure freedom of movement throughout the Nation's 
transportation systems, the effectiveness of the security framework 
surrounding that movement hinges on the private sector's commitment to 
innovation and continuous development of new security technologies to 
screen millions of passengers and bags every day.
    However, quality innovation comes with a hefty price tag, and we 
cannot reasonably expect the private sector to spend millions of 
dollars in the research and development of new and emerging 
technologies without greater transparency and communication from both 
TSA and the Department of Homeland Security.
    Currently, TSA is focusing on deploying Automated Screening Lanes, 
across 21 of the Nation's largest airports. Automated Screening Lanes 
should help to reduce passenger queues at the checkpoint. As we have 
seen with recent attacks around the world, terrorists are increasingly 
targeting public spaces with large crowds of people to inflict the 
maximum number of casualties.
    Thus, the Automated Screening Lanes can serve to enhance the 
passenger experience, ease the burden on TSOs, and eliminate security 
vulnerabilities. When thinking about how to build the checkpoint of the 
future, TSA should strive to meet all three of these goals when 
acquiring new technology and proposing new solutions.
    However, to accomplish this we need to reach far beyond Automated 
Screening Lanes. This is why I am pleased that the ITF has plans to 
pilot CT X-rays at passenger checkpoints, biometric authentication 
technology, and innovations in passenger communication all before the 
end of the summer travel season.
    I am also optimistic about TSA's efforts to connect industry with 
airport operators across the country to facilitate innovation in other 
aspects of transportation security outside the checkpoint--such as 
employee screening and biometric bag drop. However, we can and should 
be doing more.
    All of these demonstrations and pilots will be wasted effort if 
they fail to inform the administration's Strategic Five-Year Technology 
Investment Plan or enhance TSA's broken procurement process. I hope 
when the next administrator is appointed, he or she will continue to 
build on the progress of this task force, and better integrate its work 
across TSA and DHS as a whole to leverage its successes.
    I believe that we are behind the curve concerning our technology 
innovation and the traveler experience at our Nation's airports. Many 
foreign airports have implemented improved security scanners, better 
biometric capabilities, and smarter systems for passenger queuing to 
meet the emerging threats of today.
    I look forward to hearing the perspectives of our witnesses on how 
TSA and its industry partners are working together to bring more 
innovative solutions to transportation security, and what more needs to 
be done to meet this goal.
    I encourage all of the witnesses today to be candid about how the 
scope of this initiative can be expanded, and how DHS and TSA can 
better support this task force.

    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    First of all, I want to thank the witnesses for being here 
today. I am particularly excited to see Ms. Olivier here, who 
is representing the Port Authority of New York and New Jersey, 
and to discuss the progress that has been made at the Newark 
Airport and is soon to be made at JFK Airport at improving 
passenger screening.
    It was a pleasure to meet with Mr. Karoly and Mr. Council 
as we prepared for this meeting today.
    I, along with millions of people, rely on the Port 
Authority services, and I am especially pleased that you are 
here as a leader in transforming passenger screening services. 
TSA's role in protecting passengers comes with a unique set of 
challenges.
    Among these challenges is responding to the ever-evolving 
threat environment where terrorist groups innovate when it 
comes to bomb-making. This homeland security issue demands that 
TSA not only assess whether its current security protocols can 
detect such threats, but also act swiftly to identify, test, 
and put in place technologies and processes to address such 
threats.
    TSA is charged with carrying out this critical homeland 
security responsibility in an environment that often does not 
come with long-term fiscal planning resources. When TSA 
launched the Innovation Task Force in 2016 I was pleased to see 
TSA embrace direct collaboration with aviation security 
stakeholders in a more formal dialog to help drive the movement 
of the best ideas from paper to the airport checkpoint.
    Since that time, aviation security stakeholders have 
provided a range of feedback about the task force, but all 
agreed that it has been a helpful forum for their efforts to 
innovate passenger security screening. Though the impact of the 
task force is limited today, with the demonstrations underway 
at a handful of airports, it seems well-positioned to make 
great strides in improving passenger security screening, and I 
applaud all involved for their efforts.
    Currently, there are 48 automated screening lanes in 
operation around the country, with 17 of those in Newark 
Liberty International and 19 in Hartsfield-Jackson Atlanta 
International Airport. I am pleased that in the coming months 
TSA plans to put more automated screening lanes in more 
airports around the country and that at the same time TSA is 
pursuing complementary initiatives such as demonstrations of 
biometric authentication technology, also known as BAT, and 
computed tomography.
    The Transportation Security Administration's Innovation 
Task Force is a great platform for TSA to support and engage 
with stakeholders committed to innovating the passenger 
screening service. Going forward, TSA needs to be more 
strategic and transparent about investments in innovation and 
allocate adequate resources for such effort.
    For instance, it would be good to know how the task force 
initiatives line up with TSA's Five-Year Technology Investment 
Plan. To date, much of the cost of the development technology 
for the demonstrations has been borne by the private-sector 
stakeholders, as was stated by the Chairman; and it will be 
important to know if going forward TSA plans to make 
investments in technologies that it develops through the task 
force.
    I look forward to hearing today how Congress can be more 
helpful in ensuring that the task force's efforts can be 
sustained and improved to deliver more effective and efficient 
passenger screening experience to the flying public.
    Once again, I thank you all for being here and for sharing 
your testimony with us.
    I yield back the balance of my time to the Chairman.
    Mr. Katko. Thank you, Mrs. Watson Coleman.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             April 27, 2017
    In March 2016, TSA launched the Innovation Task Force as a platform 
for collaboration between TSA, airports, air carriers, and security 
technology stakeholders in furtherance of the development and 
integration of innovative security capabilities into our Nation's 
airports.
    Since the launch of the Task Force, we have heard from stakeholders 
about the progress that has been made in passenger screening. As a 
result of Task Force efforts, there are a number of technology 
demonstrations in the cue to be rolled out in the airport environment. 
These innovative systems are geared at making TSA's security screening 
more efficient and effective.
    In preparation for this hearing, one thing has become apparent to 
me--the private sector has provided a great deal of leadership in 
passenger screening initiatives. I applaud the efforts of the airlines, 
the airports, vendors who have overwhelmingly embraced this opportunity 
to improve passengers' screening experience, while enhancing airport 
security.
    It has also become clear to me that this Task Force was something 
that was needed for a very long time and I applaud former--TSA 
administrator John Neffenger for recognizing the need and putting this 
initiative is in place.
    I also want to recognize Dr. Huban Gowadia who--since January, has 
overseen TSA in an acting capacity and has shown great commitment to 
the Task Force. It is troubling that we are nearly 100 days into the 
Trump administration and, as with so many other critical positions, the 
President has failed to nominate a TSA administrator.
    Turning back to the subject at hand, I look forward to learning 
more about how the Task Force has been functioning, how stakeholders 
have been able to build upon their working relationships with TSA and 
each other to move forward with innovative passenger screening 
technologies as well as how Congress can support these efforts.
    I look forward to hearing today about ways Congress can be a 
partner in helping the Innovation Task Force achieve its goals.

    Mr. Katko. We are very pleased to have a distinguished 
panel here to testify before us today on this very important 
topic.
    Our first witness, Mr. Steve Karoly, has never testified 
before Congress, and I know how excited he is to do so, right?
    Mr. Karoly. Absolutely.
    Mr. Katko. He serves as the acting assistant administrator 
for TSA's Office of Requirements and Capabilities Analysis.
    Thank you for being here, sir.
    Mr. Karoly has been with TSA since 2014, prior to which he 
served almost 30 years as a captain in the U.S. Navy and Naval 
Reserve.
    We thank you for your on-going service to our country.
    I would also like to recognize Mr. Karoly's daughter, 
Olivia--stand up, Olivia; say hello, all right--who is in the 
audience today. She is in the eighth grade and accompanying her 
father for Bring Your Children to Work Day at TSA.
    Now, this is a pretty interesting day to come to work with 
your dad. Maybe one day I will be introducing Olivia to testify 
before the committee herself.
    Our second witness, Mr. Roosevelt Council, Jr., who was 
named the general manager of Hartsfield-Jackson Atlanta 
International Airport in January 2017. Prior to this role, Mr. 
Council served as deputy general manager and chief financial 
officer for the airport.
    He is a graduate of Memphis State University, the Harvard 
Executive Leadership Program, and the Georgia Leadership 
Council. I have spoken with Mr. Council before and he is truly 
an impressive gentleman.
    Our third witness is Ms. Jeanne Olivier, the assistant 
director for aviation security and technology at the Port 
Authority of New York and New Jersey. Ms. Olivier has worked 
with the Port Authority for over 30 years and airport 
operational management positions at JFK International, 
LaGuardia, Newark Liberty International, and Teterboro 
Airports. She has managed the Central Aviation Security Program 
since the attacks on the World Trade Center in 2001, including 
oversight of security and technology for the Port Authority's 
five airports.
    I would like to thank all of you for being here today, and 
I look forward to your testimony.
    I now recognize Mr. Steve Karoly for his opening statement.

  STATEMENT OF STEVE KAROLY, ACTING ASSISTANT ADMINISTRATOR, 
       OFFICE OF REQUIREMENTS AND CAPABILITIES ANALYSIS, 
  TRANSPORTATION SECURITY ADMINISTRATION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Karoly. Thank you, Chairman Katko.
    Good afternoon, Chairman Katko, Ranking Member Watson 
Coleman, and distinguished Members of the subcommittee. Thank 
you for the opportunity to appear before you today to discuss 
the Transportation Security Administration's Innovation Task 
Force, or ITF, and its role in fulfilling our mission to 
protect the Nation's transportation systems to ensure freedom 
of movement for people and commerce. It is truly an honor and 
privilege to be here.
    Chairman Katko, I thank you for recognizing my daughter. 
Although this is my first time to testify, I am probably more 
concerned about what she thinks at the end of this.
    I appreciate----
    Mr. Katko. She is a teenager, so don't get too optimistic.
    Mr. Karoly. I appreciate the committee's interest in and 
support of this initiative, including visits by you and your 
staff to the TSA Systems Integration Facility and airports 
deploying ITF technologies, as well as language enacted last 
year directing TSA to pursue innovative technology solutions. I 
also appreciate the collaboration of our airport, air carrier, 
and industry partners, including my colleagues here today, to 
demonstrate emerging technologies at our Nation's airports.
    TSA is taking a transformative new approach to technology 
with the Innovation Task Force. The ITF allows vendors to 
gather live stream-of-commerce data in the field in order to 
inform and refine their technology prior to entering the formal 
acquisition process. This ensures that better product enters 
formal testing while allowing TSA to gain immediate benefits.
    TSA laid out a plan to improve our technology capabilities 
in the Strategic Five-Year Technology Investment Plan for 
Aviation Security. This plan acknowledges the challenges in 
integrating new technologies into the operational environment 
prior to formal field testing and makes the commitment to 
increase stakeholder access to the operating environments. This 
laid the foundation for the Innovation Task Force, which TSA 
stood up in the spring of 2016.
    In 9 short weeks we were able to deploy our first 
innovative solution, the automated screening lanes, or ASLs, at 
Hartsfield-Jackson Atlanta International Airport, in 
partnership with Delta Air Lines and with the support of our 
Atlanta Airport partners. These ASLs augment existing X-ray 
screening technology for carry-on baggage and include multiple 
divestiture stations, enhanced bin tracking and data 
capabilities, and automated bin returns.
    Taking into account recent terror attacks on public airport 
areas, ASLs help TSA address concerns regarding crowding in 
public areas. In September 2016 the Department of Homeland 
Security approved an urgent operational need justification 
authorizing the deployment of up to 220 ASLs at 21 specified 
airports by January 31, 2018. This deployment is, of course, 
dependent upon TSA's establishing partnerships with 
stakeholders for additional lane deployments.
    Following the demonstrated success in Atlanta and DHS 
approval, TSA partnered with additional airlines and airports 
to deploy ASLs. Today we have 51 ASLs in operation at four 
airports across the country.
    Two of our largest ASL deployments include 22 lanes at 
Hartsfield-Jackson Atlanta International Airport and 17 lanes 
at Newark Liberty International Airport. Our most recent 
deployment was three lanes in Atlanta, which went live 
yesterday.
    Additional ASLs are operational at Los Angeles and Chicago 
O'Hare International Airports.
    While ASLs were our first ITF demonstration to be deployed, 
they will not be our last. Future ITF technologies include 
using computed tomography at the checkpoint, traditionally a 
technology used for checked baggage, to improve carry-on 
baggage detection.
    ITF's biometric authentication technology, or BAT, proof of 
concept uses fingerprint scanning to verify TSA PreCheck 
passenger identities. Eventually, BAT could automate the ticket 
document checker process by electronically verifying passenger 
identity and secure flight status.
    Additionally, in an effort to improve our understanding of 
existing market capabilities, TSA issued its first innovation-
related broad agency announcement in May 2016. We received 81 
responses and completed over 200 technical reviews; 52 percent 
of those solutions submitted had not been previously deployed 
domestically or internationally.
    TSA selected eight of these technologies to potentially 
join the portfolio of ITF solutions, and planning activities 
for these demonstrations are underway.
    TSA plans to release the second innovation-related BAA in 
May 2017.
    To be clear, the ITF does not provide a shortcut around 
traditional acquisition processes. While data gathered from ITF 
demonstrations may be used to inform manufacturers in the 
design and preparation of their prototype units for testing at 
DHS and TSA, these technologies still need to go through the 
rigors of the acquisition process before becoming a program of 
record.
    I would like to conclude by offering you all the 
opportunity to visit the TSA Systems Integration Facility, 
located nearby Ronald Reagan Washington National Airport, to 
see first-hand these ITF technologies in action. I would also 
like to thank the subcommittee for its continued support of the 
ITF and our airport, airline, and industry partners whose 
support make this endeavor possible.
    Thank you for the opportunity to appear here today. I look 
forward to answering your questions.
    [The prepared statement of Mr. Karoly follows:]
                   Prepared Statement of Steve Karoly
                             April 27, 2017
    Good morning, Chairman Katko, Ranking Member Watson Coleman, and 
distinguished Members of the subcommittee. Thank you for the 
opportunity to appear before you today to discuss the Transportation 
Security Administration's (TSA) Innovation Task Force (ITF) and its 
role in fulfilling our mission to protect the Nation's transportation 
systems to ensure freedom of movement for people and commerce. I 
appreciate the committee's interest in and support of this initiative 
as we work with our airport, air carrier, and other industry partners 
to demonstrate emerging technologies at our Nation's airports.
                               background
    TSA prioritizes its technology investments based on the latest 
intelligence concerning terrorist capabilities and intent. This is 
accomplished by performing risk analyses which serve as the foundation 
for deriving operational needs and requirements. These analyses take 
into consideration potential threats, vulnerabilities to those threats 
given current system capabilities, and the consequences in the event of 
an attack. To meet the challenges posed by these risk factors, TSA and 
industry partners must continually adapt and evolve screening 
technologies, processes, and systems.
    TSA laid out a plan to improve our technology capabilities in the 
Strategic Five-Year Technology Investment Plan for Aviation Security 
(the Plan), mandated under the Transportation Security Acquisition 
Reform Act (Pub. L. 113-245). In the Plan, initially released in August 
2015, TSA laid the foundation for what would become the ITF. One of 
TSA's five focus areas in the Plan includes ``Increasing Transparency 
in Engagement with Stakeholders to Enable Innovation.'' The Plan 
acknowledges that one of the difficulties with the development and 
integration of new capabilities is the integration of these 
capabilities into TSA's operational environment, given the difficulties 
of simulating the operational environment prior to formal testing in 
the field. In addition, the Plan provides a commitment to increase 
stakeholder access to the operating environments these capabilities are 
designed to improve or enhance. To deliver on this commitment, TSA 
established the ITF in the spring of 2016.
    TSA launched the ITF to demonstrate emerging capabilities in the 
passenger screening checkpoint and the checked baggage screening areas 
and charged the agency to re-envision the entire transportation 
security system as an integrated whole; increasing security 
effectiveness, while reducing friction to the traveler. ITF 
accomplishes this through the establishment of innovation sites. An 
innovation site is a designated airport where TSA is actively 
partnering with the airport authority and/or air carrier(s) to 
demonstrate one or more prototype technology, process, or staffing 
solutions. The ITF has led to the deployment of Automated Screening 
Lanes (ASLs) and is planning new projects ranging from aesthetic 
improvements to new detection technologies.
                         site selection process
    TSA selects innovation sites based on several criteria to ensure 
TSA resources are utilized efficiently, and in compliance with the 
requirements of the FAA Extension, Safety, and Security Act of 2016 
(Pub. L. 114-190). Under our current methodology, TSA selects Category 
X airports where it will establish innovation sites based on the 
following site-selection criteria:
  <bullet> Ability to begin the reconfiguration and installation of 
        security systems expeditiously;
  <bullet> Ability to share costs through Federal funding, airport 
        funding, or otherwise;
  <bullet> Infrastructure, and space needed to reduce vulnerabilities 
        and reconfigure existing security systems, and not negatively 
        impact current screening capacity;
  <bullet> Impact to security effectiveness and efficiency, including 
        consideration of detection capabilities; and
  <bullet> Ability of operational staff and stakeholders to support the 
        initiative.
    Sites are continually assessed and may be rotated to minimize 
resource impacts and secure a representative sample of the field 
environment.
                       automated screening lanes
    ITF's first innovation solution was Automated Screening Lanes 
(ASLs) demonstrated at Atlanta-Hartsfield Jackson Airport (ATL). In 
less than 9 weeks, the ITF established ATL as an innovation site and 
demonstrated ASLs in partnership with Delta Air Lines. ASLs augment 
existing X-ray screening technology for carry-on baggage and include 
multiple divestiture stations, enhanced bin tracking and data 
capabilities, and automated bin returns. TSA, airports, airlines, 
vendors, and travelers have recognized ASLs as ground-breaking in 
advancing security effectiveness, increasing throughput, and improving 
the passenger experience.
    Taking into account the recent terror attacks on public airport 
areas that took place at Brussels, Los Angeles, and Fort Lauderdale, 
ASLs provide TSA the capability to address long-held concerns regarding 
crowding in the public areas. ASLs assist in the security of public 
areas by increasing checkpoint throughput and reducing the number of 
individuals waiting in line. In September 2016, the Department of 
Homeland Security (DHS) approved an Urgent Operational Need (UON) 
justification which authorizes the deployment of up to 220 ASLs at 21 
specified airports by January 31, 2018. While the UON authorizes 220 
ASLs, deployment at this scale is contingent upon TSA establishing 
partnerships with stakeholders for additional lane deployments.
    After the demonstrated success of the ASLs in Atlanta and after the 
DHS approval of the UON, TSA partnered with additional airlines and 
airports to deploy the capability at 25 lanes at 4 airports by the 
close of calendar year 2016. Since the start of 2017, we have deployed 
23 additional ASLs at these airports, bringing the total to 48. TSA and 
our partners deployed 17 of these lanes earlier this month at Newark 
Liberty International Airport in what was our largest single ASL 
deployment to date. In addition to Atlanta-Hartsfield and Newark, ASL's 
are operational at, Los Angeles, and Chicago-O'Hare International 
Airports. These efforts are paying measurable dividends in 
effectiveness, efficiency, and even employee morale.
                         other itf technologies
    While ASLs were the ITF's first demonstrated technology solution, 
they are not our only planned demonstration. The ITF continues to 
expand to explore new solutions through temporary demonstrations at 
airports Nation-wide.
    One such new technology involves utilization of computed tomography 
(CT) to screen carry-on baggage and accessible property. CT, a mainstay 
for checked baggage screening, utilizes 3D-imaging and detection 
software to help operators automatically identify threats and may 
eliminate the need for divestiture of electronics and liquids for 
passenger accessible property screening. The demonstration for CT is 
planned for June of this year at Phoenix Sky Harbor International 
Airport.
    ITF's Biometric Authentication Technology (BAT) proof of concept 
unit uses contact or contactless fingerprint scanning to verify TSA 
PreCheck passenger identity. In the long term, BAT could automate the 
Ticket Document Checker (TDC) process by verifying passenger identity 
and Secure Flight vetting status, eliminating the need for a boarding 
pass, and grant or deny access to passengers via an electronic gate to 
the security checkpoint. The proof of concept will compare the 
passenger's fingerprint to the fingerprint the passenger provided to 
TSA during TSA PreCheck enrollment. BAT will be demonstrated initially 
at Denver International Airport and Hartsfield-Jackson Atlanta 
International Airport for proof of concept testing before the end of 
the fiscal year.
    Additionally, ITF's Passenger Communications initiative streamlines 
checkpoint operations by presenting passengers with an avatar 
discussing various procedures such as divesting of carry-on property. 
TSA is working with airports and terminal operators to demonstrate a 
variety of passenger communication tools and techniques and provide 
data for future checkpoint enhancements and designs. TSA plans to 
demonstrate Passenger Communications by July 2017 at Atlanta-Hartsfield 
and Newark.
    In an effort to improve our understanding of existing market 
capabilities, TSA issued a Broad Agency Announcement (BAA) in July 2016 
following a June 2016 industry day. TSA received 81 responses and 
completed over 200 technical reviews with over 30 reviewers from across 
TSA and the DHS enterprise. Fifty-two percent of the solutions 
submitted had not been previously deployed domestically or 
internationally. TSA selected eight of these technologies to 
potentially join the portfolio of ITF solutions, and referred two 
solutions to airports for further consideration. Planning activities 
for these eight technologies are under way. Additionally, TSA plans to 
release the second innovation-related BAA in May 2017 highlighting 
specific areas of interest to include mobile screening, queuing and 
passenger flow, and new detection capabilities.
    To be clear, the ITF does not provide a shortcut around traditional 
DHS acquisition processes. While data gathered from ITF demonstrations 
may be used to inform manufacturers in the design and preparation of 
their prototype units for testing at the DHS Transportation Security 
Laboratory and TSA Systems Integration Facility (TSIF), as well as to 
inform TSA in developing future technology requirements, technologies 
that are ITF solutions which involve passenger safety and security 
still need to go through appropriate rigorous testing at these 
respective facilities as required under standard acquisition processes 
before becoming a program of record. These processes ensure that before 
fully investing in a technology, we know it will enhance transportation 
security, reduce the risk to the traveling public, and function 
properly in an operational environment.
                               conclusion
    The ITF is focused on taking a fresh look at the entire aviation 
security system. We are working with public and private partners to 
provide a platform for Government, industry, and stakeholders to gather 
requirements for new approaches to transportation security and 
accelerate the development and deployment of new technologies and 
improvements to operations.
    I would like to conclude by offering you all the opportunity to 
visit the TSIF, located nearby at Ronald Reagan Washington National 
Airport, to see these ITF technologies in action first-hand. I would 
also like to thank the subcommittee for its continued support of the 
ITF, and our airline and airport partners whose support makes this 
endeavor possible. Thank you for the opportunity to appear here today.

    Mr. Katko. Thank you, Mr. Karoly. Your first time 
testifying and you got within 8 seconds of the time limit. That 
is pretty darn good, so I thank you.
    I now recognize Mr. Roosevelt Council for his testimony.

     STATEMENT OF ROOSEVELT COUNCIL JR., GENERAL MANAGER, 
HARTSFIELD-JACKSON ATLANTA INTERNATIONAL AIRPORT, DEPARTMENT OF 
               AVIATION, CITY OF ATLANTA, GEORGIA

    Mr. Council. Thank you, Chairman.
    Chairman Katko, Ranking Member Watson Coleman, and Members 
of the subcommittee, thank you for holding this hearing, and 
let me express my sincerest gratitude for once again including 
Hartsfield-Jackson Atlanta International Airport in your 
discussions.
    So as you are well aware, Hartsfield-Jackson is the world's 
busiest airport. In 2015 we become the first airport ever to 
host more than 100 million passengers in a single year; and in 
2016 we welcomed even more, topping 104 million passengers.
    So to provide some perspective, that is more than 280,000 
passengers, on average, that navigates themselves through our 
airport each and every day. In 2016 more than 17 million 
passengers underwent TSA screening at our airport, so that is 
nearly about 47,000 daily passengers on average going through 
security screening each day.
    Stories of long security lines made National headlines in 
2015 and 2016. At Hartsfield-Jackson wait times exceeding 35 
minutes were not uncommon during this time period.
    To ease congestion while keeping safety and security at the 
forefront, we worked with TSA and the airlines to ramp up 
staffing, open lanes earlier in the day, and increase the use 
of canine teams. In addition, we introduced automated screening 
lanes, commonly known as smart lanes, which is the subject of 
today's hearing.
    Hartsfield-Jackson was the first airport in the Nation to 
test these smart lanes as part of a pilot program in which we 
partnered with Delta Air Lines, the Transportation Security 
Administration, and the city of Atlanta. These smart lanes are 
modeled after a system used at London's Heathrow Airport.
    Construction on two smart lanes began May 4, 2016 at our 
south security checkpoint in our domestic terminal. Both were 
fully operational by May 26.
    So for Hartsfield-Jackson smart lanes supported three 
primary objectives.
    The first objective was to strengthen security. Smart lanes 
have a dual exit belt from the X-ray machine. If a bag sets off 
an alarm it is diverted to an alternate belt for inspection. 
The owner of the bag does not have access to the diverted bag.
    The second objective was to increase operational 
efficiencies. Smart lanes reduce passenger wait time. Plus, the 
technology, particularly the automated bin return, eases the 
manual work performed by TSA agents, who traditionally shuffle 
bins to the front of the line throughout the day. In addition, 
these lanes allow up to five people to divest for screening at 
the same time, which is more efficient than the single-file 
queues at most screening checkpoints.
    The third objective was to improve the passenger 
experience. The smart lanes' five individual stations enable 
passengers to place items in the bins at their own pace. In 
effect, this set-up keeps slower passengers from holding up the 
line. Plus, the bins use a tracking system so passengers do not 
have to wait to go through the body scanners at the same time 
as their bags. After passengers pick up their bags the bins 
automatically return to the start of the line.
    As I said, we opened our first two smart lanes in the 
spring of 2016. From our initial observation, those lanes 
proved successful, safely and efficiently increasing passenger 
throughput by as much as 30 percent.
    This is an important stat when you are talking about 
reducing wait time and eliminating bottlenecks. A standard 
security lane can screen, on average, 160 passengers per hour; 
a smart lane can screen, on average, 208 passengers per hour. 
During busy travel periods like the Fourth of July and 
Thanksgiving, such expedited screening can make the difference 
between a 30-minute--35-minute wait time and an under-20-minute 
wait, which is Hartsfield-Jackson's overall goal for security 
screening.
    Based on the success of these two pilot smart lanes, we 
decided to move forward with purchasing additional smart lanes 
to install in our domestic terminal. It is important to mention 
that in our domestic terminal we have three security 
checkpoints: Domestic south, with four lanes; domestic north, 
with five lanes; and domestic main, with 18 lanes. So that is a 
total of 27 security lanes.
    Beyond the existing smart--two existing smart lanes, our 
goal was to add 20 more, converting the majority of the 
standard lanes. That would bring us to 22 smart lanes out of 27 
security lanes total. The north checkpoint would have four 
smart lanes, south would have three, and the main would have 
15.
    Our initial two smart lanes were funded by a $1 million 
investment from Delta Air Lines. Hartsfield-Jackson purchased 
the additional 20 lanes with airport dollars. That expenditure 
totaled $12.5 million.
    I should also point out that for the most part U.S. 
airports are not funding these smart lanes themselves, but 
relying on airlines to foot most of the bill. However, given 
the vast amount of O&D traffic at Hartsfield-Jackson, combined 
with the efficiency from the pilot smart lanes, we saw 
advantages early on and, of course, we were encouraged by 
Delta's initial investment.
    Over the past year we have phased in the installation of 20 
smart lanes to minimize operational disruption to our passenger 
and maintain overall screening capacity. We contracted with 
equipment-provider MacDonald Douglas and we worked with the 
company to make adjustment to our checkpoints to accommodate 
the smart lanes.
    Smart lanes are roughly 52 feet long. I am sorry, standard 
lanes are roughly 52 feet long. Smart lanes require an 
additional 25 feet of space. So there is a sizable footprint to 
this equipment.
    So we began the electrical work in October 2016, and in 
November we installed one lane at the domestic south, and in 
December we installed two lanes at the domestic north. Starting 
in January we staggered the installation of 15 smart lanes at 
domestic main and two additional lanes at domestic south.
    So we set a deadline of May of this year to complete 
installation of the 20 smart lanes, and we found out last night 
that all lanes are now completed and they have been certified 
by TSA and is now actually in use as of today.
    Of course, we were mindful of how the installation would 
impact our customers, so each phase took into consideration 
several things: First, that our PreCheck lanes would flex to 
ensure that at a minimum four lanes remained open throughout 
the construction time line; second, we made sure all lanes not 
under construction could be staffed if needed.
    So now that all 22 lanes have been installed, I want to 
offer a few observations.
    First, it is clear that smart lanes speed passenger 
processing. We have seen that in action.
    But I should mentioned two important caveats. First, these 
smart lanes have been with us just shy of 1 year, so their 
performance over time will be the true measure of success. But 
based on initial findings, we are pleased with the results.
    The second caveat is that a learning curve exists for 
passengers who are unfamiliar with the technology. However, we 
are confident that in time people will understand the process 
and enjoy the convenience and time savings.
    The second observation is that it is clear that automation 
benefits both TSA and the airport. The automated bin system has 
relieved TSA agents of manual work involving the bins, but the 
smart lanes themselves have also provided security 
enhancements. If a suspicious bag is detected it is kept 
secured from passengers without holding up the line.
    The final observation is that clear lanes may help propel 
our airport's long-term growth. As I mentioned earlier, this 
airport welcomed 104 million passengers in 2016. That is a 2.6 
percent increase over 2015, and we expect our passenger count 
to continue to climb this year and beyond.
    So these smart lanes, combined with the renovation, 
modernization, and expansion of our facilities as part of our 
20-year capital improvement program, will prove useful as we 
grow our operations to meet passenger demand well into the 
future.
    Now, I should also mention that while Hartsfield-Jackson 
has been the pioneer on testing smart lanes, as earlier 
mentioned, other airports have also jumped on board. 
Hartsfield-Jackson's pioneering efforts are due in no large 
part to strong working relationships we have cultivated over 
the years with our stakeholders, particularly TSA.
    I want to express our team's gratitude to Atlanta's TSA 
Federal Security Director Mary Leftridge Byrd for the 
remarkable job she and her team do each day to ensure passenger 
safety and security while trying to achieve exemplary customer 
service. The world's busiest airport appreciates its cohesive 
and respectful relationship with TSA in order to achieve these 
successful operations on a daily basis.
    So in closing, while it is too early to fully assess the 
strength and weaknesses of smart lanes, our findings over the 
past year have shown positive results when it comes to 
enhancing safety, accelerating passenger processing, increasing 
operational efficiency, and improving the customer experience.
    So once again, I would like to thank this body for the 
opportunity to address this very important issue at this time. 
Thank you.
    [The statement of Mr. Council follows:]
              Prepared Statement of Roosevelt Council, Jr.
                             April 27, 2017
    Chairman Katko, Ranking Member Watson Coleman, and Members of the 
subcommittee, thank you for holding this hearing. And let me express my 
sincerest gratitude for once again including Hartsfield-Jackson Atlanta 
International Airport in your discussions.
    As you are well aware, Hartsfield-Jackson is the world's busiest 
airport. In 2015, we became the first airport ever to host more than 
100 million passengers in a single year. And in 2016, we welcomed even 
more, topping 104 million passengers. To provide some perspective, 
that's more than 280,000 passengers, on average, navigating through the 
airport each and every day.
    In 2016, more than 17 million passengers underwent TSA security 
screening at our airport. That's nearly 47,000 daily passengers, on 
average, going through security screening each day.
    Stories of long security lines made National headlines in 2015 and 
2016. At Hartsfield-Jackson, wait times exceeding 35 minutes were not 
uncommon during this time period. To ease congestion while keeping 
safety and security at the forefront, we worked with TSA and the 
airlines to ramp up staffing, open lanes earlier in the day and 
increase the use of K-9 teams.
    In addition, we introduced Automated Screening Lanes, commonly 
known as Smart Lanes, which is the subject of today's hearing.
    Hartsfield-Jackson was the first airport in the Nation to test 
these Smart Lanes as part of a pilot program in which we partnered with 
Delta Air Lines, the Transportation Security Administration and the 
city of Atlanta. These Smart Lanes are modeled after a system used at 
London Heathrow Airport.
    Construction on two Smart Lanes began May 4, 2016, at our South 
Security checkpoint in our Domestic Terminal. Both were fully 
operational by May 26.
    For Hartsfield-Jackson, Smart Lanes supported three primary 
objectives:
  <bullet> The first objective: to strengthen security.--Smart Lanes 
        have a dual exit belt from the X-ray machine. If a bag sets off 
        an alarm, it is diverted to an alternate belt for inspection. 
        The owner of the bag does not have access to the diverted bag.
  <bullet> The second objective: to increase operational 
        efficiencies.--Smart Lanes reduce passenger wait times. Plus, 
        the technology, particularly the automatic bin return, eases 
        the manual work performed by TSA agents, who traditionally 
        shuffle bins to the front of the line throughout the day. In 
        addition, these lanes allow up to five passengers to divest for 
        screening at the same time, which is more efficient than 
        single-file queues at most screening checkpoints.
  <bullet> The third objective: to improve the passenger experience.--
        The Smart Lanes' five individual stations enable passengers to 
        place items in the bins at their own pace. In effect, this set-
        up keeps slower passengers from holding up the line. Plus, the 
        bins use a tracking mechanism so passengers do not have to wait 
        to go through the body scanner at the same time as their bags. 
        After passengers pick up their bags, the bins automatically 
        return to the start of the line.
    As I said, we opened our first two Smart Lanes in the spring of 
2016. From our initial observations, those lanes proved successful, 
safely and efficiently speeding passenger throughput by as much as 30 
percent. This is an important statistic when you're talking about 
reducing wait times and eliminating bottlenecks.
    A standard security lane can screen, on average, 160 passengers per 
hour. A Smart Lane can screen, on average, 208 passengers per hour. 
During busy travel periods--like the Fourth of July and Thanksgiving--
such expedited screening can make the difference between a 35-minute 
wait and an under 20-minute wait, which is Hartsfield-Jackson's overall 
goal for security screening.
    Based on the success of our two pilot Smart Lanes, we decided to 
move forward with purchasing additional Smart Lanes to install in our 
Domestic Terminal.
    It is important to mention that in our Domestic Terminal, we have 
three security checkpoints: Domestic South with four lanes; Domestic 
North with five lanes; and Domestic Main with 18 lanes. That's 27 
security lanes total.
    Beyond the two existing Smart Lanes, our goal was to add 20 more, 
converting the majority of the standard lanes. That would bring us to 
22 Smart Lanes out of 27 security lanes total. The North checkpoint 
would have four Smart Lanes, South would have three, and Main would 
have 15.
    Our initial two Smart Lanes were funded by a $1 million investment 
from Delta Air Lines. Hartsfield-Jackson purchased the additional 20 
lanes with airport dollars. That expenditure totaled about $12.5 
million. I should point out that, for the most part, U.S. airports are 
not funding these Smart Lanes themselves, but relying on airlines to 
foot the bill. However, given the vast amount of Origin and Destination 
traffic at Hartsfield-Jackson--combined with the efficiency from the 
pilot Smart Lanes program--we saw advantages early on and, of course, 
we were encouraged by Delta's initial investment.
    Over the past year, we have phased in the installation of 20 Smart 
Lanes to minimize operational disruption to our passengers and maintain 
overall screening capacity.
    We contracted with equipment provider MacDonald-Humphrey, and we 
worked with the company to make adjustments to our checkpoints to 
accommodate the Smart Lanes. Standard lanes are roughly 52 feet long. 
Smart lanes require an additional 25 feet of space, so there is a 
sizable footprint to this equipment.
    We began the electrical work in October 16. Then in November, we 
installed one lane at Domestic South. And in December, we installed two 
lanes at Domestic North. Starting in January of this year, we staggered 
the installation of 15 Smart Lanes at Domestic Main and two additional 
lanes at Domestic North. We set a deadline of May of this year to 
complete installation of the 20 Smart Lanes, and I was told last week 
that we are ahead of schedule for the busy Memorial Day weekend travel.
    Of course, we were mindful of how the installation would impact our 
customers. So each phase took into consideration several things: First, 
that our PreCheck lanes would ``flex'' to ensure that, at a minimum, 
four lanes remained open throughout the construction time line. Second, 
we made sure all lanes not under construction could be staffed if 
needed.
    So now that 19 of 22 Smart Lanes have been installed and are in 
use, I want to offer a few observations:
  <bullet> First, it's clear that Smart Lanes speed passenger 
        processing.--We've seen that in action. But I should mention 
        two important caveats: First, these Smart Lanes have been with 
        us just shy of 1 year, so their performance over time will be 
        the true measure of success. But based on our initial findings, 
        we are pleased with the results. The second caveat is this: A 
        learning curve exists for passengers who are unfamiliar with 
        the technology. However, we are confident that, in time, people 
        will understand the process and enjoy the convenience and time 
        savings.
  <bullet> Second, it's clear that automation benefits both TSA and the 
        airport.--The automated bin system has relieved TSA agents of 
        manual work involving the bins. But the Smart Lanes themselves 
        have also provided security enhancements. If a suspicious bag 
        is detected, it is kept secured from passengers without holding 
        up the line.
  <bullet> Third, it's clear that Smart Lanes may help propel our long-
        term growth.--As I mentioned earlier, this airport welcomed 104 
        million passengers in 2016. That's a 2.6 percent increase over 
        our 2015 numbers. And we expect our passenger counts to 
        continue climbing this year and beyond. So these Smart Lanes--
        combined with the renovation, modernization, and expansion of 
        our facilities as part of our 20-year capital improvement 
        program--will prove useful as we grow our operations to meet 
        passenger demand well into the future.
    I should also mention that while Hartsfield-Jackson has been the 
pioneer on testing these Smart Lanes, other airports have jumped on 
board. These airports include LAX, Chicago's O'Hare, Newark, and 
Dallas-Fort Worth.
    Hartsfield-Jackson's pioneering efforts are due, in no small part, 
to strong working relationships we have cultivated with our 
stakeholders, particularly TSA. I want to express our team's gratitude 
to TSA Federal Security Director Mary Leftridge Byrd for the remarkable 
job she and her team do each day to ensure passenger safety and 
security while trying to achieve exemplary customer service. The 
world's busiest airport appreciates its cohesive and respectful 
relationship with TSA to achieve successful operations on a daily 
basis.
    In closing, while it's too early to fully assess the strengths and 
weaknesses of Smart Lanes, our findings over the past year have shown 
positive results when it comes to enhancing safety, accelerating 
passenger processing, increasing operational efficiencies and improving 
the customer experience.
    Once again, thank you for the opportunity to address this body.

    Mr. Katko. Thank you, Mr. Council, for your testimony.
    The Chair now recognizes Ms. Olivier for her testimony.

  STATEMENT OF JEANNE M. OLIVIER, A.A.E., ASSISTANT DIRECTOR, 
   AVIATION SECURITY AND TECHNOLOGY, SECURITY OPERATIONS AND 
  PROGRAMS DEPARTMENT, THE PORT AUTHORITY OF NEW YORK AND NEW 
                             JERSEY

    Ms. Olivier. Chairman Katko, Ranking Member Watson Coleman, 
and Members of the subcommittee, thank you for the opportunity 
to discuss the checkpoint of the future and TSA's Innovation 
Task Force.
    As assistant director of aviation security and technology 
for the Port Authority of New York and New Jersey I oversee 
security operations for John F. Kennedy, LaGuardia, and Stewart 
International Airports in New York, and Newark Liberty 
International Airport in New Jersey.
    There are, as you have heard, currently 17 automated 
screening lanes deployed at Newark. Deployments are also 
underway at Kennedy Airport, expected to be completed somewhat 
in--toward the end of May.
    United Airlines purchased the automated screening equipment 
and paid for the necessary reconfiguration of the checkpoint at 
Newark Airport. The Port Authority appreciates, certainly, the 
investment that United was willing to make to provide these 
lanes.
    The lanes have been well-received by our passengers at 
Newark and we have seen an increase in the throughput at the 
TSA security checkpoint, which has helped to maintain 
reasonable wait times and reduce congestion in the public 
queuing area. It is important to note, however, that although 
throughput has increased as a result of the automated screening 
lanes, the number of transportation security officers needed to 
effectively screen passengers has not been reduced.
    The lanes funded by Newark--by United at Newark were 
proposed at a time of crisis when TSA was unable to meet the 
surging passenger demand last spring and summer due to 
insufficient TSA personnel and resources. Fortunately, Congress 
was able to authorize additional funding for TSA personnel, 
overtime, and canine deployments.
    I would like to pause right here and say, Mr. Chairman, we 
appreciate the significant focus you and the committee 
dedicated to the checkpoint improvements last year. We could 
not have gotten through that without you.
    We cannot neglect or cut back on the TSA resources needed 
today to maintain effective and efficient screening operations 
for passengers and baggage at airports across the country. 
Innovation and technology investments must be made in addition 
to the staffing levels needed to accommodate the significant 
growth in travel.
    Newark alone has grown by 10 percent this year to date over 
last year.
    While responsibility for passenger and baggage screening 
are by law the sole responsibility of the TSA, airports, of 
course, play a critical role in partnering with the agency to 
help it meet its core mission. Since last spring airports and 
air carriers have provided and continue to provide significant 
support for non-security functions and technology deployment at 
TSA security checkpoints. The recent smooth and relatively 
seamless spring break travel this year highlights the 
effectiveness of this on-going partnership.
    However, airport and air carrier resources are not infinite 
and private industry cannot and should not be made responsible 
for funding TSA's primary and fundamental responsibility for 
screening passengers and baggage effectively and efficiently. 
Federal funding resources are vital to ensure the long-term 
sustainability of TSA's Innovation Task Force.
    The Port Authority and airports across the country welcome 
the opportunity to partner directly with TSA on additional 
agile and innovative solutions. We are eager to assist TSA 
and--with operational testing to ensure that innovative 
technologies or processes work effectively and do not 
inadvertently slow down passenger screening.
    We also look forward to a checkpoint of the future that 
does not require people to divest shoes, coats, laptops, and 
might even allow them once again to carry food and beverages 
through the checkpoint.
    As public entities, airports, just like the TSA, have 
public safety and security as their key mission. Just like the 
Federal Government, we need the flexibility and resources to 
spur innovative solutions that meet or exceed current security 
requirements. Local funding resources, like the passenger 
facility charge, can provide the resources necessary to 
facilitate investments at the local level to further enhance 
the myriad of airport security responsibilities.
    In conclusion, the Port Authority and airport operators 
across the country support the Innovation Task Force and look 
forward to helping test innovative solutions. Federal funding 
is key to the long-term success of the Innovation Task Force.
    The Innovation Task Force efforts must be on top of 
adequate staffing, canines, and other TSA resources needed to 
maintain the effectiveness and efficiency of the checkpoint of 
today.
    Thank you for the opportunity to testify.
    [The prepared statement of Ms. Olivier follows:]
            Prepared Statement of Jeanne M. Olivier, A.A.E.
                             April 27, 2017
    Chairman Katko, Ranking Member Watson Coleman, and Members of the 
subcommittee, thank you for the opportunity to discuss the checkpoint 
of the future and the Port Authority of New York and New Jersey's 
collaboration with the Transportation Security Administration and its 
Innovation Task Force. I currently serve as assistant director, 
aviation security and technology for the Security Operations and 
Programs Department of the Port Authority of New York and New Jersey. 
In this capacity, I oversee security operations for New York's John F. 
Kennedy International, LaGuardia, and Stewart International airports 
and for Newark Liberty International Airport in New Jersey. I am also 
the second vice chair of the American Association of Airport 
Executives, which represents thousands of men and women across the 
country who manage and operate the Nation's airports.
    The Port Authority's airport system served a combined 129.4 million 
passengers in 2016. Specifically, Newark Liberty International 
processed 40.4 million, John F. Kennedy International hosted 58.9 
million, LaGuardia greeted 29.8 million, and Stewart International 
served 275,000. Newark's share of the NY/NJ area airport system 
passengers is 31.2 percent. It offers non-stop air service to more than 
165 destinations aboard dozens of air carriers. Newark Liberty has an 
enormous economic impact on the region, responsible for: About 188,089 
jobs, $9.9 billion in annual wages, and $27.2 billion in annual sales. 
Traffic at Newark Liberty is projected to grow by 5 percent in 2017, 
however, we have already seen an amazing actual growth of 10 percent 
this year to date over last year, far exceeding the National average of 
2 to 4 percent traffic growth projected by the Federal Aviation 
Administration. Nation-wide, TSA anticipates a 4 percent growth in 
passenger volume and expects to screen 228 million passengers between 
Memorial Day and Labor Day compared to 217 million passengers last 
summer. Thus, effective and efficient passenger screening is very 
important for our successful operation and service to travelers.
    Terminal C, operated solely by United Airlines, at Newark Liberty 
International Airport accounts for 57 percent of the airport's 
passenger volume, or 23.1 million travelers last year. There are 
currently 17 Automated Screening Lanes (ASL) deployed at Newark Liberty 
International Airport at the Terminal C checkpoint. The first of the 
lanes were installed in November 2016. United Airlines purchased the 
ASL equipment and paid for the necessary reconfiguration of the 
checkpoint area.
    The new automated screening lanes offer several features that 
automate many of the functions previously conducted manually, which 
allows travelers to move more swiftly and efficiently through the 
checkpoint. These innovations include:
  <bullet> Stainless steel countertops that were constructed to enable 
        several passengers to place their items in bins simultaneously;
  <bullet> Automated conveyor belts that draw bins into the X-ray 
        machines, and return the bins back to the front of the queue 
        for passengers;
  <bullet> Carry-on bags that trigger an alarm warning of a potential 
        threat are automatically pushed to a separate area to allow 
        bins behind to continue through the screening process 
        uninterrupted;
  <bullet> Property bins that are 25 percent larger than the bins in 
        standard screening lanes and large enough to hold roller bags;
  <bullet> Unique Radio Frequency Identification (RFID) tags that are 
        attached to each bin to allow for additional accountability of 
        a traveler's items as they transit throughout the security 
        process; and
  <bullet> Cameras that capture photographic images of the contents of 
        each bin, which are linked side-by-side to the X-ray image of a 
        bag's contents.
    The lanes have been well received by passengers at Newark Liberty 
and have been working as intended. We have seen an increase in 
passenger throughput at the TSA security checkpoint, which has helped 
to maintain reasonable wait times and reduce congestion in the public 
queuing area. The PANYNJ appreciates the investment that United was 
willing to make to provide these lanes as faster throughput and reduced 
congestion improves the passenger experience and reduces 
vulnerabilities in the public area.
    Although the ASLs get travelers through the TSA screening 
checkpoint at a faster pace, it is our understanding that they do not 
reduce the number of Transportation Security Officers needed to 
effectively screen passengers. TSA is currently conducting a detailed 
data collection covering all key checkpoint activity, including 
detection and alarm rates, throughput, operations, maintenance, optimal 
configurations and staffing ratios, at the four airports where 
automated screening lanes are currently deployed. We encourage TSA to 
carefully analyze the data before making any staffing allocation 
decisions or changes to its resource allocation model. The improvements 
provided by the ASLs would be quickly negated by a premature or short-
sighted reduction of TSA screening personnel.
    The ASLs funded by United at Newark Liberty were launched at a time 
of crisis when TSA was unable to meet the surging passenger demand last 
spring and summer due to insufficient TSA personnel and resources. 
Fortunately, Congress was able to authorize additional funding for TSA 
personnel, overtime, and canine deployments. It is vital that TSA 
receives the funding levels necessary to continue to ensure adequate 
TSO levels, canines, and other resources to maintain checkpoint 
efficiency.
    At the same time, airport operators and air carriers joined in 
partnership with TSA to provide contract personnel to cover non-
security functions at the checkpoint in addition to the investments 
made in automated screening lanes. Airport and air carrier support of 
TSA checkpoint operations continue today, and the reasonable wait times 
across the country during the recent spring break travel season 
highlights the effectiveness of this on-going partnership. However, 
airport and air carrier resources are not infinite, and private 
industry cannot and should not be made responsible for funding TSA's 
primary and fundamental responsibility for screening passengers and 
baggage effectively and efficiently.
    Federal funding resources are vital to ensure the long-term 
sustainability of TSA's Innovation Task Force. Additionally, Federal 
funding resources will allow TSA to make investments solely on the 
merits of an innovative technology or process without the bias of 
competitive advantage factors inherent in private-sector funding 
decisions.
    In addition to enhancing the passenger experience at airports 
through investments in ASLs and other technology, Federal funding holds 
the potential to spur further technological and process innovations to 
fundamentally change checkpoint screening operating procedures. 
Possible enhancements include allowing passengers to pass through the 
checkpoint without stopping, taking off shoes or removing laptops from 
bags, carrying beverages and food while at the same time improving 
security and detection. As these technologies are developed, airports 
are eager to assist TSA with operational testing to ensure that these 
innovations work effectively in a challenging airport environment and 
do not inadvertently slow down passenger processing.
    TSA's expedited screening program, PreCheck, provides a glimpse 
into the possibilities of a checkpoint of the future. The complementary 
program currently allows vetted and other eligible passengers to keep 
on their shoes and lightweight jackets and leave laptops and allowed 
liquids in their carry-on baggage. Unfortunately, PreCheck, as a 
Government-run procurement program, is not living up to its full 
potential.
    Although TSA continues to slowly grow participation in the program, 
the PreCheck enrollment process is cumbersome, and enrollment options 
are severely limited. The private sector and industry stakeholders, 
including airport operators, have presented and advocated for 
innovative solutions that would increase participation in the PreCheck 
program and achieve the robust, critical mass levels originally 
envisioned for the program. TSA needs to follow the direction mandated 
by Congress in the FAA Extension, Safety and Security Act of 2016 to 
``publish application enrollment standards that add multiple private-
sector application capabilities for the PreCheck program to increase 
the public's enrollment access to such program.'' We hope that TSA will 
soon follow the direction of Congress to coordinate with interested 
parties to deploy TSA-approved ready-to-market private sector 
solutions; partner with the private sector to use kiosks, mobile 
devices or other mobile enrollment platforms to make enrollment easier; 
and, consider leveraging existing resources and abilities at airports 
to conduct fingerprint and background checks.
    While responsibility for passenger and baggage screening are by law 
the sole responsibility of TSA, airports play an essential role in 
partnering with the agency to help it meet its core mission. The PANYNJ 
looks forward to continuing to partner with TSA to ensure effective, 
efficient, and innovative security operations for the screening of 
passengers and baggage.
    In addition to working with the TSA to meet its passenger and 
baggage screening mandates, airports perform a number of inherently 
local security-related functions at their facilities, including 
incident response and management, perimeter security, employee 
credentialing, access control, infrastructure and operations planning, 
and numerous local law enforcement and public safety functions.
    Airport operators--just like the Federal Government--need the 
flexibility and resources to spur innovative solutions that meet or 
exceed current security requirements. Local funding sources, like the 
Passenger Facility Charge, can provide the resources necessary to 
facilitate innovation and technology investment at the local level to 
further enhance the myriad of airport security responsibilities.
    The PANYNJ and airport operators across the country support the 
TSA's Innovation Task Force (ITF) efforts and look forward to more 
opportunities for direct partnership and engagement to test innovative 
solutions at the passenger checkpoint and throughout the airport 
environment. We hope that TSA's ITF can be sustainable for the long-
term and enable the agency to be agile in its investment and deployment 
decisions. Agility is key to staying ahead of evolving threats to 
aviation, which continues to be a prime target for terrorists. Again, 
Federal funding for the ITF will be necessary to ensure TSA has the 
ability to work with all interested industry partners, including 
airport operators, and can focus on innovations that have the potential 
to fundamentally change the screening process.
    In the mean time, we cannot neglect or cut back on the TSA 
personnel, canines, and other resources needed today to maintain 
effective and efficient screening operations for passengers and baggage 
at airports across the country. Innovation and technology investment 
must be made in addition to the staffing levels needed to accommodate 
the significant growth in air travel.
    Thank you for this opportunity to testify. As public agents, the 
PANYNJ and my airport colleagues across the country take our security 
mission very seriously. We welcome the opportunity to partner with TSA 
to introduce new and innovative approaches to enhancing security 
throughout the airport environment.

    Mr. Katko. Thank you, Ms. Olivier.
    Thank you for your kind words about the collaborative 
effort we had last summer to deal with a crisis with 
checkpoints. You know, no one person takes credit for it. It 
was a team effort and we all, private sector and public sector 
worked together and solved the problem.
    What a concept, everybody working together, right? So I 
think that is a good thing and we will continue to do that 
moving forward. That is, indeed, the goal of this committee.
    I now recognize myself for 5 minutes of questions. But 
before I do that I will note votes were just called, so after 
my questions we will suspend until after votes. Sorry to keep 
you here longer, but that is how it goes.
    Now, Mr. Karoly, I appreciate your testimony and I want to 
talk to you in a moment about the ITF and how we can make it 
better.
    I just want to note, Mr. Council, for you that if I don't 
get to you in the first round of questions I most definitely 
will get to you in the second round because I want to talk to 
you a little bit more about what Atlanta is doing with respect 
to employee screening.
    So first of all, with respect to the task force, I know, 
Mr. Karoly, that you have been heavily involved in looking at 
the automated screening lanes. Is that correct?
    Mr. Karoly. Yes, sir. It is one of our initiatives.
    Mr. Katko. OK. How long have you had the screening lanes up 
and moving?
    Mr. Karoly. So we started this endeavor, again, with 
Atlanta and Delta Air Lines back in April. It was a 9-week 
effort and we were able to deploy that by Memorial Day of 2016.
    Mr. Katko. OK. Is it only one airport they are being tested 
at or is it Nation-wide?
    Mr. Karoly. So we are testing them Nation-wide. We have, 
again, 51 ASL lanes and we are assessing each of those lanes, 
or the manufacturers, at various airports.
    Mr. Katko. OK. Then the second thing is upcoming 
demonstrations that haven't come on-line yet are the computed 
tomography, or basically 3-D scanners?
    Mr. Karoly. Yes, sir. It is the C.T. at the checkpoint, if 
you will.
    Mr. Katko. Right. Are they up and going yet, or no?
    Mr. Karoly. So we have tested them at the Transportation 
Security Lab in New Jersey for--to meet the detection standard, 
which two of the three have passed. We also have tested in the 
TSIF two of the three to go through we will say initial 
operational checks.
    Right now they are working on one last change, if you will, 
to their software, and we will be deploying those: One to 
Phoenix Airport in the next 2 weeks if all goes well with the 
computer check, and then the other one either in Boston and/or 
Chicago.
    Mr. Katko. The third component I understand you are looking 
at--and we are--I am excited about all of it, but I am 
particularly excited about the use of biometrics and the 
biometric authentication technology, which is really one 
component of some of the advancing technologies out there. Have 
you done anything with the biometric authentication technology 
yet?
    Mr. Karoly. Yes, sir. It is presently in our Transportation 
Security Integration Facility going through some assessment 
before getting it out to the field for initial deployment for a 
pilot demonstration. We expect to get it out this summer if all 
goes well, and that is a biometric fingerprint collection 
technology, if you will.
    Mr. Katko. Now, is it fair to say that if the resources 
were better allocated to the task force that you might be able 
to get more of this technology out in a more expedited manner?
    Mr. Karoly. Sir, I guess as a systems engineer and 
acquisition professional I would say in a unconstrained 
environment we could always do more if we were to receive more. 
But obviously we are in a fiscally constrained environment and 
as long as the ITF receives funding as documented in the 
President's budget, I believe we can execute our mission in 
2018.
    Mr. Katko. OK.
    Now, of course we have to watch the budget. We have a 
terrible deficit.
    But there is also--I know this is shocking so I am glad you 
are sitting down when I say this--but there are areas where 
agencies could find some waste and reallocate resources or 
reprioritize resources. When it comes to protecting the public 
and especially with respect to aviation, I think that is of 
paramount importance, and so getting the new and innovative 
products tested and to market, if you will, and on the front 
lines doing what they are intended to do quicker, I don't think 
we can dedicate enough resources to that.
    So do you have any idea of what type of things you could do 
if you had more resources? Can you tell us what those resources 
are that you would need?
    Mr. Karoly. In an unconstrained environment, sir, I would 
think that I would focus--again, I would really have to think 
back how it ties together, but I would focus on functional 
areas.
    So in other words, I think I would--we are doing planning 
and strategy today; I would do more planning and strategy for 
other initiatives. We are doing testing and assessment today; I 
would do more testing and assessment for other technologies.
    Additionally, we dedicate some funds to our broad agency 
announcement, focusing on small businesses who can't actually 
fund maybe their assessments to an airport. So we would fund 
that travel. I would look at increasing that area.
    Last, systems integration across the board as we integrate 
these systems into the field.
    Mr. Katko. OK. Do you have any idea of the amount of 
personnel you would need to do that, or the additional 
personnel and additional resources in order to achieve that 
goal?
    Mr. Karoly. Today we have 14 FTE working for the Innovation 
Task Force.
    Mr. Katko. Nation-wide just 14?
    Mr. Karoly. At the headquarters staff.
    Mr. Katko. OK.
    Mr. Karoly. But this is a big, again, as we always said, 
public-private partnership. A lot of TSA personnel are 
supporting it. Just the ITF staff themselves, but we work 
within TSA getting human factors, getting training folks, 
getting operation support folks.
    So it is bigger than the 14, but your specific question was 
for ITF-related directly.
    Again, I would have to go back, but the vision of the final 
operation capability of our organization within ORCA, our 
Office of Requirements and Capabilities Analysis, was looking 
at about 25 FTE for the Innovation Task Force.
    Mr. Katko. OK. What I would like you to do--my time is up. 
Before I do it, I would ask you to do is go back with your 
folks and, you know, come up with a couple of different 
scenarios whereby specifics with respect to personnel, and get 
back to us within a few weeks as to what, you know, what we 
could do to help really, truly turbocharge this task force 
idea.
    Because what we want to do is be able to get the 
technologies, like I said, that is cutting-edge on the front 
lines working as they are supposed to much quicker than we are 
currently doing. One of the keys to that is Innovation Task 
Force, and the public-private partnership component of this is 
a wonderful idea and it is just--but it does things TSA has 
done a long time.
    So let's try and figure out a way to step it up. If you can 
get back with a proposal within a week, or 2 weeks at the most, 
I would very, very much appreciate it because we are going to 
begin the authorization process, and I want to include this in 
part of that process, OK?
    Mr. Karoly. Yes, sir.
    Mr. Katko. All right. Thank you.
    Now, Mrs. Watson Coleman likes to be on time, and I am a 
little bit different in that regard. So we are going to gavel 
out and go upstairs and vote, and as soon as we are done with 
votes I ask everybody to come back here and we will continue 
with the hearing.
    [Recess.]
    Mr. Katko. The committee is back in session. I wanted to 
apologize for the delay, but we don't keep the schedule on the 
floor of the House, we just go when they tell us to go, as I 
hope you understand.
    The Chair now recognizes the Ranking Member, Mrs. Watson 
Coleman, for 5 minutes of questions.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    First of all, Ms. Olivier, excuse me for messing up your 
name. I just didn't look at it.
    One of the things you indicated was that soon JFK was going 
to have these smart lanes. Did I hear that correctly?
    Ms. Olivier. Yes, Congresswoman.
    Mrs. Watson Coleman. My question is, who is paying for 
them?
    Ms. Olivier. The airlines.
    Mrs. Watson Coleman. The airlines.
    Ms. Olivier. Yes. So at Kennedy it is Delta for T-2 and T-4 
and then American Airlines for T-8.
    Mrs. Watson Coleman. OK.
    So I guess, Mr. Karoly--did I say that right? Because I 
think I messed your name up, too.
    Mr. Karoly. You did, ma'am. All good.
    Mrs. Watson Coleman. Oh, good. Thank you. Thank you.
    What are you doing about the airports that can't--that 
don't have the kind of relationship with airlines, that don't 
have an airline that is willing to install these? What is TSA's 
role here, and what should we be expecting, and what would you 
need?
    Mr. Karoly. So right now, ma'am, we are under what we call 
an urgent operational need authority, and that authority gave 
us permission to go deploy these, working with our 
stakeholders, to these 21 airports. So we are working with all 
of those airports to figure out what best works for them at 
this point in time.
    So again, the airlines are negotiating, if you will, with 
the airport authority, and the airport authority negotiating 
with the airlines. Then once that initial engagement occurs 
then TSA gets involved, if you will, to work together to 
actually deploy these at those airports.
    So I believe right now we don't need anything additional to 
execute under that UON requirement.
    Mrs. Watson Coleman. So, but is this an assumption that TSA 
won't have to actually use its financial resources to install 
these in any airport, that you would only be responsible for 
operation and maintenance?
    Mr. Karoly. This summer, ma'am, we are going to go and 
decide, using the data that we are getting now through the 
assessments, to determine if this becomes a program of record 
for TSA. So----
    Mrs. Watson Coleman. A pardon-me of record?
    Mr. Karoly. It is called a program of record, a real 
acquisition program of record.
    If it is determined through the data cost-benefit analysis 
that it makes sense for us to--that--for it to become a program 
of record, we will end up starting to procure these in the out 
years, if you will. That is the plan.
    Mrs. Watson Coleman. I guess this is for both Ms. Olivier 
and Mr. Council--and thank you, also, for being here. What has 
been the most noticeable difference in your interactions with 
TSA since the creation of the task force? How can Congress be 
helpful as you try to keep moving your respective organizations 
forward in improving both passenger services and security?
    Mr. Council and, again, Ms. Olivier.
    Mr. Council. Thank you, Congressman.
    So we have somewhat of an outstanding relationship with our 
TSA partners in Atlanta. You know, they have been on board the 
whole way, especially when it comes to the smart lanes, you 
know.
    One condition that I think that I mentioned to you that 
with the smart lanes TSA needed to own those lanes to be able 
to operate them, OK? So we had to gift those lanes to TSA. Of 
course, our stakeholder in Georgia allowed us to actually do 
that, which I am assuming then will be the responsibility of 
TSA to handle the operations and the maintenance of those.
    So we have had to do that to get certified lanes for use.
    Mrs. Watson Coleman. Thank you.
    Mr. Council. Yes.
    Mrs. Watson Coleman. So let me just ask you, Mr. Karoly, is 
that your sort of understanding the way TSA--how it would 
operate in that space? You would be responsible for owning 
these lanes, operating them, and ensuring the maintenance of 
them?
    Mr. Karoly. Yes, ma'am. That is how it is working today, 
that, again, of those that are deployed either the airlines or 
airport would gift it to us and/or bail, which is another term 
that they use.
    But as part of the negotiation between the ASL manufacturer 
and the airline or the airport there is a 2-year maintenance 
warranty period, so that is covered under their initial costs. 
Once that 2-year warranty period is up we, the Government, will 
end up taking that maintenance at that point.
    Mrs. Watson Coleman. Thank you.
    Thank you, Mr. Chair.
    Ms. Olivier, do you have comments to this question?
    If it is red it is on. Only here.
    Ms. Olivier. Thank you.
    Yes, Congresswoman. We do feel that we have a very good 
working relationship with the local TSA as well as those 
Nationally to promote innovative technologies, and we are 
always eager to help pilot new activities.
    I would say that our interaction at the National level for 
the task force, that largely occurred between United and the 
task force itself. But, of course, we then provide all of the 
oversight for ensuring the equivalent of building code, you 
know, correctness, and we have the security oversight during 
the construction periods. Those things were all--engaged the 
Port Authority resources.
    Locally, both the TSA and the Port Authority, as well as 
United, are very excited about the improvements in the 
screening checkpoint.
    I would caution the issue of maintenance, though. We have 
noticed at all of our airports that if there is a weak link in 
the chain it is that maintenance contract. While I have not--I 
can't link that to the innovation lanes, I can link it--and 
there are no secrets in this; we all know that there are some 
issues with the Government contract to get the maintenance done 
in a timely way and to have parts delivered in a very timely 
way.
    Local TSA folks are extremely creative if they have to 
cannibalize parts from one machine to keep another one working, 
but the actually delivery of parts is a problem. I think the 
TSA needs some help and inspection in that contract.
    Mrs. Watson Coleman. Thank you. That is actually good 
information for us to have.
    I just have one quick question.
    You all mentioned the fact that even with these smart lanes 
that does not mean that there is going to be a need for less 
TSA personnel. You also talked about the importance of canines 
in ensuring safety and security.
    So I am wondering if you have any thoughts about any budget 
proposals that you have seen or heard about as it relates to 
perhaps diminishing some of the resources and the capacity of 
the TSA to provide those personnel and those canines. I would 
like to ask both Mr. Council and Ms. Olivier to respond.
    Mr. Council. For us, any reduction below the current level 
will clearly have somewhat of an impact for us, mainly based on 
the volume that we actually generate at Hartsfield-Jackson. But 
we haven't seen that yet.
    But if there is any kind of proposed reduction then, of 
course, that means that we would have to work in collaboration 
with our local TSA to see just what that means to us, alright, 
because for now we are not looking just at managing the current 
demand that we have. We know that our demand is actually going 
up, alright, and we want to make sure that we are properly in 
place with the amount of resources that is actually needed for 
us to keep things going.
    Again, understand for us that as soon as we can get people 
through security and to get on the secure side then they become 
less of a target, and we try to reduce that by minimizing the 
wait times for most of our passengers.
    Mrs. Watson Coleman. Thank you.
    I don't know if you wanted to respond to that.
    Ms. Olivier. I agree completely. We know that it is a 
difficult time and that budgets are constrained, so we are very 
sensitive to that.
    But any diminution in the staffing for screeners at our 
facilities we fear we are going to revisit March of last year. 
We don't feel that we can lose that.
    Just in terms of funding many of the initiatives, whether 
it is the--going forward with the Innovation Task Force or 
other aspects of these operations, obviously we are concerned 
that there is an aviation security fee that is part of what 
goes on a plane ticket and that those funds are currently being 
used to, you know, cover the deficit--the Federal deficit--as 
opposed to going to the TSA for use in things like innovation 
and other screeners. So certainly we are concerned about that.
    Mrs. Watson Coleman. Thank you.
    I just want to mention, Olivia, I hope this has been a good 
experience for you and you are proud of your father. Of course, 
he has done so well in his appearance before us today.
    Thank you.
    Thank you, Mr. Chairman.
    Mr. Katko. Thank you.
    The Chair will now recognize other Members of the 
subcommittee for 5 minutes for questions they may wish to ask 
the witnesses. In accordance with our committee rules and 
practice, I plan to recognize Members who were present at the 
start of the hearing by seniority on the subcommittee. Those 
coming in later will be recognized in the order of their 
arrival.
    The Chair now recognizes the gentleman from Louisiana, Mr. 
Higgins, for 5 minutes of questions.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Council, I would like to advise you, sir, that I 
traverse to your airport many, many, many times, and it is a 
testament to your own management and your people that it is 
much less stressful through the TSA screening lanes than it is 
to get through the baggage checkpoint at Delta, so that is a 
shift for sure. Congratulations.
    Mr. Council. Thank you, sir.
    Mr. Higgins. The use of canines, it has been proven again 
and again that the canine dogs, well-trained with a canine 
officer, are highly effective at detecting residue or the 
presence of explosive materials or gunpowder. We have used them 
effectively for many years in different aspects of securing our 
country, including the military, of course, and law 
enforcement.
    You stated that the use of canines has been crucial to the 
success of your own TSA screening. So I would ask you, 
considering the sort of old-tech effectiveness of a canine and 
a trained officer, and specifically regarding a PreCheck line 
or perhaps in the future something beyond PreCheck--for 
instance, frequent flyers and trusted travelers that are 
perhaps Government employees that have already in possession of 
a significant security clearance through the U.S. Government, 
something perhaps that you may envision beyond a PreCheck 
level, would not the use of an officer and a canine be enough 
without the investment in technologies and whatnot to 
completely screen a PreCheck customer, a flyer--frequent flyer, 
someone that has been entrusted with some envisioned level of 
PreCheck beyond what currently exists?
    Mr. Council. So, Congressman, clearly the canines have been 
a very useful tool for us, you know, and we try to use them as 
expeditiously as we can. I think currently we have 10 canine 
units.
    What is so amazing about them is that--and what I have 
learned is that, you know, that people oftentimes ask, you 
know, why don't they see more? Well, it is because they can't 
really work in close proximity to each other because it sort of 
throws them off.
    They are so sensitively and highly tuned to where it really 
sort-of negates their ability to detect when they are in close 
proximity to another canine. So it sort-of works in a certain 
way.
    You know, I would say that given the emergent threats that 
seem to be almost on a constant basis, you know, I would think, 
you know, that eliminating any kind of possible resource that 
we have that could possibly detect anything, you know, would 
be, you know, something that I think that we would have to be 
careful with. You know, I can't really speak to maybe what TSA 
would actually do when it comes to that, you know, which is 
sort-of in their space about how they manage that. All the 
canines are TSA canines.
    You know, but from our perspective, you know, safety and 
security, again, is first and foremost for us. So whatever gets 
people through this airport safely and securely, then we are 
all for it. We are all for it.
    Mr. Higgins. We are on the same page. I bring it up, sir, 
because in an airport during the course of my travels over the 
last few months the backpack that I always carry was side-
barred for searching. I had left a can of Red Bull in there I 
didn't know about--I had forgotten. So that needed to be 
checked, obviously, and I understood that.
    But during that process my backpack was swabbed. I can only 
assume that would have been for gunpowder residue. Would that 
be correct?
    Mr. Council. I think TSA would probably----
    Mr. Higgins. Swab would be put into----
    Mr. Karoly. Yes, sir, for explosive trace.
    Mr. Higgins. OK. Well, that technology did not work because 
in that backpack on countless occasions I have carried firearms 
and ammunition for a couple years in that backpack.
    I think it is important as we move forward and we look at 
technologies and consider technologies that sometimes old-
school works very well relative to new technologies, and 
especially within this era of a $20 trillion debt, as we seek 
to protect the people's treasure as we move forward in looking 
at the best ways to manage our TSA systems and get our flyers 
through the airport safely and on time.
    With that, Mr. Chairman, I yield back.
    Mr. Katko. Thank you, Mr. Higgins.
    I would like to take the opportunity, since we don't have 
many other people questioning today, just to do another around 
of questions. I want to speak to Mr. Council and Ms. Olivier, 
in particular.
    In advance of the question, I encourage both of you to 
speak frankly because we can't improve the ITF unless we have 
frank discussions. So given the fact that getting the 
technology to--from a testing phase to an operational phase is 
so critically important, especially given the emerging threats, 
which are pretty evident from what happened with--in overseas 
airports, where we had--people can't even bring laptops on 
planes. The bad guys are constantly evolving the threat matrix 
and we need to respond in a more efficient and prompt manner.
    So with that as a backdrop I ask you, what else should we 
be doing with the ITF to make them better, make it more 
efficient?
    Mr. Council. So I think some of the things that you 
mentioned, which is the biometric screening, you know, as well 
as the C.T. scans, you know, they seem to have actually worked. 
You know, there is a lot of new technology that is more 
international in its concept, OK, that we don't deploy here.
    So for the most part, you know, as we have communicated 
with TSA, we are in favor of actually being a test bed for 
anything that seems to be a new opportunity to us better 
protect the passengers that we have that is coming through. You 
know, and at any point we are to be willing to actually talk to 
them about what is needed to actually get that done.
    I think they have been very gracious on a lot of occasions 
because of the amount of traffic that we have. You know, so I, 
you know, I just think that from what I can see--I can only 
talk about the things that have been introduced to us, which is 
trying to do things that would allow us to try to protect 
people before they get to the checkpoints, all right, you know, 
and that is always the most serious part for us, you know, that 
white space that we talk about between the front door when you 
get out of your car on the curb and you get to the checkpoint 
is the thing that actually--that is what our focus is when it 
comes to security, and trying to make sure those people can get 
to the secured side of the airport, which is behind TSA, you 
know?
    So, you know, I mean, any effort that actually allows us to 
be able to do that--and we have taken steps ourselves, you 
know, to ensure that. You know, we have been hyper-vigilant 
when it comes to that area and trying to protect that area, you 
know, and we constantly--it is always--we are always on the 
lookout for things that can come about that can give us new 
ideas in terms of how we can respond quickly, how we can 
identify, and how we can prevent.
    Mr. Katko. Thank you, Mr. Council.
    Ms. Olivier.
    Ms. Olivier. I wish I had said all that.
    But I will give you a couple other things that I would love 
to see the task force work on, certainly the continuing 
algorithms. They need to be able to adapt algorithms very 
quickly, and I know that they are adding new ones at these 
innovation lanes, but we need to take a look at how quickly 
they could adapt algorithms throughout the country even in the 
legacy installations when we pick up that there is a new 
threat.
    So we also need to continue to look at the human factor 
element on the part of the screeners. There is a lot that goes 
on at these screening checkpoints, and how can we understand a 
way to be able to allow those screeners to maximize their 
acuity in picking up issues in baggage and to minimize 
distractions in what can be a very busy environment.
    Beyond that, I would like to see the innovation lane focus 
expanded out a bit to a distance detection, because when people 
come in through the front doors, to the extent that you have a 
stand-off detection of somebody with explosives on them--and 
Mr. Higgins' dogs would help with that, but they are in short 
supply. But other technology that gives you some stand-off 
detection would help you dealing with the threat in the public 
spaces even before people get to the checkpoint, so that is 
also pretty critical. I would like to see some work in that 
area.
    Mr. Katko. Thank you.
    I just want one last question, and I am going to switch 
gears here considerably so I won't have to do another round of 
questions, and that is for Mr. Council.
    We had a discussion yesterday before you came in about what 
Atlanta is doing with respect to screening of all employees. If 
you could briefly summarize for everyone what that is I would 
appreciate it, because that is going to be a narrative that is 
going to be examined going forward.
    We just had an access controls bill passed out of the House 
this week, and it is going to mandate that an analysis be done 
about screening all employees--or potential for screening all 
employees at airports Nation-wide. I know the hue and cry is 
going to be, ``It can't be done.'' Well, you are the largest 
airport in the country, one of the largest in the world. Please 
tell everyone what you are doing with respect to screening 
employees.
    Mr. Council. I can, Mr. Chairman.
    So basically right now at Hartsfield-Jackson we are doing a 
full screening and inspection for all of our employees, 
especially those that have SIDA access, and SIDA is security 
identification area, which is those people that actually can 
get out on the airfield and have access to planes.
    So right now we have been very fortunate that all of the 
stakeholders that would have a role in this have agreed to be 
willing participants in this screening process. That includes 
the airlines; it includes concessionaires, and all of the 
people that make up the whole eco-chain within the airport.
    So currently every airline except Delta, who is our major 
hub carrier, comes through four screening locations that we 
have at our airport, OK? Those that are Delta employees who 
have that--Delta actually has a screening process on their 
secure lot.
    When you get to their secure lot it takes a SIDA badge to 
get into that lot, and once they get onto that lot then they 
are also screened before they get on the buses that will take 
them to the airfield. That screening involves checking of their 
bags, some of the explosive trace detection, the swabs as well 
as some of the hand wands.
    But once those employees are actually checked then they are 
led to a sterile environment to where there cannot be any kind 
of outside influence on those employees before they get on the 
bus. That sterile area is actually manned by security guards.
    So once they get on the bus and make their way up toward 
the airfield, before they get into the airfield then there is 
another stop that is there and there is another possibility for 
a random search there by VIPR and other security personnel that 
will again ensure that everybody that is on that bus, you know, 
has, to the most part, been screened. So that is very important 
for us.
    But for non-Delta employees, all other employees----
    Mr. Katko. Let me interrupt you, just before you get to 
non-Delta.
    Mr. Council. Sure.
    Mr. Katko. But the bus does go and they bring them into the 
airport and they go directly into a secure area so they don't 
get released to the public before they go into the airport, 
correct?
    Mr. Council. That is exactly correct.
    Mr. Katko. OK. All right.
    Mr. Council. Yes. Yes. That is a very good point, sir.
    So all other airport employees actually go through four of 
the screening locations that we have, and those screening 
locations include metal detector, X-ray machines, explosive 
trace, as well as hand wands. They will also get pat-downs if 
there is an alarm or alert that is actually hit once they go 
through the machines.
    So we have started this process now and we are probably in 
our second year. The good thing, in terms of what Delta is 
doing, is by the end of this year they will also be installing 
the metal detectors and the X-ray machines.
    So, so far it has been working for us. The stakeholders 
have been very diligent in their efforts, and we feel that it 
has made a big difference at Hartsfield-Jackson.
    Mr. Katko. We could go on and on, but I want to commend you 
for doing that. If the world's largest airport can do it and 
the costs associated with it can somehow be absorbed--I know 
Delta is paying for their own screening and I know it is a 
substantial sum of money, but they--you can't put a value on 
safety.
    When you are plugging a security gap as big as this one, 
the way you are doing it in an effective manner, I just want to 
say for the record we very much applaud it and we appreciate 
it, and the committee appreciates and applauds your efforts, so 
thank you very much.
    Mr. Council. Thank you, Mr. Chairman.
    Mr. Katko. With that, the Chair now recognizes Mrs. Watson 
Coleman for questions.
    Mrs. Watson Coleman. Thank you.
    I just really am prompted to ask one question, and this has 
to do with the Fort Lauderdale situation, where a person picked 
up his baggage, which contained his gun, and then had his 
ammunition separated, and then he goes into the bathroom, and 
then he comes out and you know what happens. So my question is, 
I know that has got to be something that you all are thinking 
about or reacting to, and I just wanted to know what you all 
are doing in that space.
    Mr. Council. So for us, yes, that situation--and it is 
amazing that that situation in itself has not happened before 
it actually happened. You know, but that is the challenge as an 
airport that we have, managing, you know, what happens in that 
non-secure space.
    You know, for us prevention is always what we try to work 
on, but it is also how quickly we can respond and what 
mitigation plans we have to put in place as soon as we can when 
something like that actually happens, you know. This is 
something that we train on. You know, we train judiciously to 
try to react and to try to make sure that we move those people 
that could be affected, you know, in a very safe way and get 
out of harm's way.
    But to be quite frank with you, it is very difficult to 
prevent, you know, so that is why we spend so much time in 
trying to recognize behavior. We have people that are 
plainclothesmen that literally look at behavior of passengers, 
you know, and try to detect and try to pick up, you know, 
nuances that could lead us to think that this is someone that 
we need to watch.
    But the majority of our efforts, in addition to that, is 
really around, how do we mitigate and respond as quickly as we 
can to an event to try to minimize it?
    Mrs. Watson Coleman. You all have plain-clothes security.
    Mr. Council. Yes----
    Mrs. Watson Coleman. Are they armed?
    Mr. Council. I believe they are.
    Mrs. Watson Coleman. OK.
    Mr. Council. Yes, they are.
    Mrs. Watson Coleman. Ms. Olivier?
    Ms. Olivier. Yes, Congressman.
    The Port Authority has actually written to the 
administrator of the--the acting administrator of the TSA about 
this, making several suggestions certainly that include 
separating the checking of these weapons and when it comes time 
to receive them that they be received in a different area from 
the baggage area where other baggage is, and that, in fact, the 
airlines be required to notify the receiving airport that they 
are shipping through weaponry so that the airport can make a 
decision on whether it should deploy its police, its armed 
LEOs, to the point where those weapons are reclaimed.
    Also, as I think you are sensitive in our region, we are 
very concerned throughout our region about guns and the access 
to guns in our New York-New Jersey area. Often we find that 
passengers who are resident in another State, another locale, 
licensed to carry the guns, are unaware of the local laws. If 
you are not licensed to carry a gun in New York City, for 
example, when you arrive and you, you know, unwrap your gun, 
you are not allowed to be carrying that alone unless you have a 
local license, and you are potentially subject to arrest.
    We feel that the airlines, understanding that they are 
checking a weapon and understanding what the destination of 
this passenger is, should give advanced warning to those 
passengers that, ``Wait a minute, if you are not licensed to 
carry you probably should not be bringing this to New York.'' 
So we urge that some action be taken in that regard to require 
airlines to deliver those messages, as well.
    Mrs. Watson Coleman. Could I ask that the copy of those 
suggestions be sent to us so that we might look at them?
    Ms. Olivier. We will do so.
    Mrs. Watson Coleman. Thank you very much.
    Mr. Katko. Yes. I was just going to ask the same thing, for 
sure.
    The Chair now recognizes Mr. Higgins for any further 
questions he may have.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Karoly, regarding the technology for smart lanes, I am 
seeing on this handout that there are five models for smart 
lanes. Is that correct?
    Mr. Karoly. Yes, sir. There are five manufacturers and then 
there is the integration of both a Smiths and a Rapiscan X-ray, 
so there are virtually 10 different configurations from five 
manufacturers.
    Mr. Higgins. Have all five of these models been deployed at 
the testing airports, at the pilot airports?
    Mr. Karoly. Right now, sir, the only deployed model is the 
MacDonald Humfrey and Rapiscan.
    Mr. Higgins. That is the model that, Mr. Council, you have 
in your airport, is the MacDonald Humfrey?
    Mr. Council. That is correct, sir.
    Mr. Higgins. Perhaps I missed that in earlier testimony. If 
I did I apologize.
    Is there intention as you expand the program, sir, to 
deploy the other four models, whereby they might be measured 
for their efficiency and effectiveness?
    Mr. Karoly. Yes, sir. That is the plan, working with our 
stakeholders. We just approved the Vanderlande and Rapiscan 
system, so that is a system that is available to airports and 
airlines; and we just approved the Scarabee Smiths system for 
the same thing.
    We are still going through--undergoing testing with the two 
remaining systems, but once that is complete that will be 
available for other airlines and airports to deploy.
    Mr. Higgins. OK.
    Regarding, Mr. Council, you--it was very encouraging to 
hear the screening that is taking place for the employees, 
airport employees, at your airport, so that is a question I had 
posed to some ladies and gentlemen that testified before this 
committee some month or so ago. It is very encouraging to hear 
that.
    But how would we balance that against airports that do not 
have screening access like that and procedures in place, given 
the fact that the airplane itself that we are trying to assure 
that that aircraft has not had a weapon, say, planted on it 
somewhere by some employee--that is the reason we are screening 
our employees, right?
    So how can we balance that against the fact that other 
airports do not have such stringent--or some other airports, 
perhaps--where that plane that comes to your airport is not--
has come from an airport that has--does not have that screening 
for their employees?
    So how do we balance that, and how would this committee 
move forward with recommendations for TSA to correct that?
    Mr. Council. So I think that basically the whole notion of 
employee screening has to be just more pervasive through other 
airports.
    Mr. Higgins. No doubt.
    Mr. Council. Yes. That literally has to be where we start.
    You know, I think that the job that we feel like that we 
have done, you know, in all cases we are trying to deter, you 
know, we are trying to prevent, you know, anything that could 
actually happen. One of the issues that we had that kicked all 
of this off was the transport of weapons that was found from an 
employee at Hartsfield-Jackson, you know, and we soon learned 
that there was--that was something that was part of something 
larger and stuff.
    So that incident itself has put us in the position where we 
are now, to where we try to scrutinize our employees a whole 
lot better than that.
    In terms of any guns that are coming in, you know, it just 
depends on how they come in. You know, and if it is part of 
somebody's checked baggage--that incident that happened in Fort 
Lauderdale--again, it is really tough to try to prevent.
    Mr. Higgins. Right. It would be more speaking of, like, 
intentional planting of a weapon by an employee.
    If I could shift this question to Mr. Karoly, would you be 
the gentleman that is receiving incoming new technologies? For 
instance, here are several technologies here that are as yet 
untested. Is there any pending technology that would be 
deployed to test arriving aircraft, the aircraft themselves, 
that would potentially detect within the passenger compartments 
of the aircraft some potential threat like a planted handgun?
    Mr. Karoly. Sir, we are not working in that area today. We 
do have a broad agency announcement that we will be releasing, 
our second one, in a couple weeks, and with that broad agency 
announcement it asks for state-of-the-art we will say 
technologies, process changes, to better secure the 
transportation environment, if you will. So----
    Mr. Higgins. That would include the aircraft itself?
    Mr. Karoly. It could include the aircraft if somebody 
proposed that information, sir. Yes, sir, but we are not doing 
it today.
    Mr. Higgins. Thank you.
    Mr. Chairman, I yield back.
    Thank you all for testifying today.
    Mr. Katko. Thank you, Mr. Higgins.
    I would like to thank all of the three witnesses here today 
for their testimony. It was excellent. We covered a wide range 
of topics and really very thought-provoking subject matter came 
up for us, so I appreciate it.
    I want to really reiterate that the primary goal, in my 
mind, of the ITF is to give them the tools necessary to expand 
their operations so that more and better technology can be 
tested on a more expedited manner and so we can get the good 
ideas on the front lines to keep our country protected as 
emerging threats--and ever-evolving emerging threats, as we 
know--from the bad guys can be properly detected and thwarted.
    So that is the goal of this hearing. That is the goal of 
our inquiry going forward.
    So, Mr. Karoly, if you could get us a response by May 5 to 
the inquiry we made to you on the record I would very much 
appreciate that.
    I would like to thank everyone else and my fellow committee 
Members here for their excellent questions.
    We may have additional questions for the witnesses, and we 
will ask you to respond to these in writing.
    Pursuant to committee rule VII(D), the hearing record will 
be open for 10 days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 4:29 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

          Questions From Chairman John Katko for Steve Karoly
    Question 1. How has the Innovation Task Force sought to improve the 
way TSA develops, tests, and deploys new technologies into the field?
    Answer. Response was not received at the time of publication.
    Question 2a. What changes, if any, should be made to the 
relationship between DHS S&T and TSA in regards to how we procure and 
field new technologies?
    Answer. Response was not received at the time of publication.
    Question 2b. Is there a way to better collaborate on developing 
capabilities similar to the creation of the DHS Joint Requirements 
Council, which was created to help unify procurement requirements 
across individual DHS components?
    Answer. Response was not received at the time of publication.
    Question 3. How does the Innovation Task Force inform the 
development of the mandatory Five-Year Strategic Technology Investment 
Plan?
    Answer. Response was not received at the time of publication.
    Question 4. What is TSA doing to assess the impact new technologies 
like the Automated Screening Lanes will have on the current staffing 
allocation model?
    Answer. Response was not received at the time of publication.
    Question 5a. Last year, TSA screened over 738 million passengers of 
which nearly 97 million were international departures from the top 20 
airports in the United States. For those foreign visitors departing the 
United States, State and CBP has already collected their biometrics and 
completed a fair amount of vetting prior to their entry into the United 
States.
    Given the vetting conducted by State and CBP prior to entry, is it 
possible to leverage that information gathering, vetting, link 
analysis, and move those foreign visitors into a known traveler lane?
    Answer. Response was not received at the time of publication.
    Question 5b. Would you give us an update on what conversations you 
have had with CBP in this regard?
    Answer. Response was not received at the time of publication.
    Question 6. In what ways would you say the Innovation Task Force 
has impacted the way in which TSA approaches technology solutions at 
the passenger screening process?
    Answer. Response was not received at the time of publication.
    Question 7a. Now and in the future, is the ITF planned to be a 
``checkpoint of the future'' to simply demonstrate mature and pre-
mature technologies and impress/urge the public/airports/airlines?
    Answer. Response was not received at the time of publication.
    Question 7b. Or is ITF designed to quickly integrate new, needed 
technologies, gather critical OT experience and data, and be able to 
fast-track those capabilities into airports?
    Answer. Response was not received at the time of publication.
    Question 8a. ITF emerged out of a process engineering issue in wait 
times.
    How does that ``priority'' fit into the other TSA priorities of 
cyber, HME, employee screening, liquid explosives, etc.?
    Answer. Response was not received at the time of publication.
    Question 8b. How does the ITF advance a priority in concert with 
the existing TSA technology prioritization, security vulnerability, and 
testing goals?
    Answer. Response was not received at the time of publication.
    Question 8c. Has ITF identified its priorities or is everything a 
priority?
    Answer. Response was not received at the time of publication.
    Question 9a. A well-defined procurement path or airport security 
requirement has to be aligned with the ITF for technology companies 
large and small to meaningfully participate.
    How does the ITF work align with development of the Five-Year 
Acquisition Plan?
    Answer. Response was not received at the time of publication.
    Question 9b. If not, why not?
    Answer. Response was not received at the time of publication.
    Question 10. The ITF has potential value, however, if the 
demonstrated technologies are then sent to the TSIF potentially, 
upstaging long-standing T&E activities, makes existing manpower and 
resourcing problem worse.
    What personnel and resourcing is TSA devoting to this effort 
without diluting existing and vital requirement development, equipment 
testing, and evaluation?
    Answer. Response was not received at the time of publication.
    Question 11. If ITF in no way reduces the time it takes to develop 
requirements and get technology to the checkpoint either with airport 
or TSA dollars and perhaps worse, disrupts installation of needed 
upgrades and replacement of existing technologies then it's been a 
colossal waste of effort.
    How will TSA be able to reduce the time it takes to get technology 
deployed using the ITF process?
    Answer. Response was not received at the time of publication.
    Question 12. Innovation lane-approved projects have included CT 
scanners, biometrics, mobile ETDs and airport staffing models. However, 
what's not clear is what is the resourcing to bring these solutions to 
bear.
    What does TSA need in terms of funding the ITF to be able to test 
multiple technologies, collect operational data, and write requirements 
documents?
    Answer. Response was not received at the time of publication.
    Question 13. What feedback have you received from front-line 
Transportation Security Officers who are working at the various 
innovation lanes in place at airports across the country?
    Answer. Response was not received at the time of publication.
    Question 14. Does TSA have a plan to institutionalize the Task 
Force or attempt to connect its findings into existing programs and 
offices at TSA?
    Answer. Response was not received at the time of publication.
    Question 15a. Has the ITF demonstrated any new technologies at 
surface transportation hubs?
    Answer. Response was not received at the time of publication.
    Question 15b. If no, why not?
    Answer. Response was not received at the time of publication.
    Question 16. How can TSA and DHS S&T work together better when it 
comes to developing not only joint requirements, but capabilities as 
well?
    Answer. Response was not received at the time of publication.
    Question 17. How do you believe TSA as an agency can be better 
structured to support innovation when it comes to screening 
technologies?
    Answer. Response was not received at the time of publication.
     Questions From Ranking Member Watson Coleman for Steve Karoly
    Question 1a. How many small-to-medium businesses participate in the 
ITF?
    Answer. Response was not received at the time of publication.
    Question 1b. How is TSA working to keep the small-to-medium 
businesses engaged and contributing to new passenger screening 
technologies?
    Answer. Response was not received at the time of publication.
    Question 2. What has the Innovation Task Force accomplished since 
the initial stand-up in spring of 2016?
    Answer. Response was not received at the time of publication.
    Question 3a. What is the long-term plan for the Innovation Task 
Force going forward?
    Answer. Response was not received at the time of publication.
    Question 3b. Where does the Innovation Task Force fall in the 
priorities for TSA?
    Answer. Response was not received at the time of publication.
    Question 4a. What has TSA's outreach to the flying public about 
changes in screening procedures been?
    Answer. Response was not received at the time of publication.
    Question 4b. What are the long-term plans for letting the flying 
public know what to expect in the screening changes that will be coming 
to their airports?
    Answer. Response was not received at the time of publication.
    Question 5. With the roll-out of the demonstrations and 
communicating with passengers, how is TSA taking into account persons 
with disabilities or those who speak different languages and how the 
new technologies might impact their travel?
    Answer. Response was not received at the time of publication.
    Question 6a. In the past, TSA has rolled out technology that was 
controversial. When the first generation advanced imaging technology 
machines were rolled out there was mass confusion and concerns about 
the review process for the devices.
    Answer. Response was not received at the time of publication.
    Question 6b. How has the Task Force improved TSA's review products 
before putting them through to demonstrations?
    Answer. Response was not received at the time of publication.
    Question 7. What is the Task Force's interaction with the Aviation 
Security Advisory Committee?
    Answer. Response was not received at the time of publication.
    Question 8. The Task Force seems as if it has been a solid example 
to public and private sectors partnering to make a positive impact.
    What resources or assistance do you think the Task Force needs from 
the private sector to continue to help build on the work that has been 
completed thus far?
    Answer. Response was not received at the time of publication.
    Question 9. Please describe the interplay between the Task Force, 
the Transportation Security Laboratory (TSL) and TSA Systems 
Integration Facility (TSIF).
    Answer. Response was not received at the time of publication.
    Question 10. How does the Task Force prioritize technologies?
    Answer. Response was not received at the time of publication.
     Questions From Chairman John Katko for Roosevelt Council, Jr.
    Question 1. What do you believe to be the primary takeaways from 
the innovation lanes in place at your airport?
    Answer. A primary takeaway from the project management aspect of 
installing the Automated Screening Lanes (ASLs) was the importance of 
putting in place the required electrical infrastructure ahead of the 
ASL installation. Setting up the infrastructure in advance saved time 
and minimized the duration of out-of-service equipment. From an 
operational aspect, the primary takeaway is that compared with a 
standard lane, an ASL increases passenger throughput by as much as 30 
percent. As passenger growth in originating traffic continues to climb, 
the increased throughput helps our airport minimize lines and keep wait 
times at or below 20 minutes.
    Question 2. What are the primary challenges to implementing new 
screening technologies at airports, such as automated screening lanes?
    Answer. Aside from funding, the primary challenge of implementing a 
new technology, especially one that interfaces with the traveling 
public, is the passenger's adjustment to the new process. In the case 
of ASLs, even PreCheck travelers and other frequent fliers have faced a 
learning curve with the new process. With standard screening lanes, for 
instance, only certain items needed to be placed in a bin. The ASL, on 
the other hand, requires all items be placed in a bin. At this point, 
familiarization and constant communication with the traveling public 
are the only solutions. Of course, all airports may not install the 
same technologies, leading to possible uncertainty and confusion as the 
traveling public navigates different processes. Another major challenge 
is available checkpoint floor area. ASLs and other technologies can 
require a larger footprint, forcing some area-constrained checkpoints 
to make major building modifications to install these new technologies.
    Question 3. Do you think that the TSA's Innovation Task Force (ITF) 
is well-positioned to implement solutions from findings derived from 
the innovation lanes at your airport?
    Answer. Yes, we are confident that ITF is well-positioned to 
implement solutions based on findings from the innovation lanes. Since 
the first ASL installation 1 year ago, the city of Atlanta, the 
Transportation Security Administration and our airline partners have 
worked with the task force to test several process improvements. Such 
improvements include dual AIT screening, cross-lane screening and 
remote screening. We believe testing these new initiatives at the 
world's busiest airport gives ITF the information needed to implement 
changes at other large airports Nation-wide.
    Question 4. What are airports doing to support technology 
innovation at TSA and how do you perceive the relationship on this 
front between stakeholders and the agency?
    Answer. We are pleased to report that the relationship between the 
city of Atlanta, our partner airlines, and TSA has always been--and 
remains--strong. We pride ourselves in supporting TSA's technology 
initiatives. We recently provided design support, added capacity to our 
electrical infrastructure, and constructed additional facilities for 
TSA to conduct a remote screening room pilot program.
    Question 5. What insight do you have into how TSA develops, 
procures, and deploys new technologies at airports? How can this 
process be made more effective?
    Answer. As an airport, we have little insight into how TSA develops 
and procures technology. It is our understanding that ITF brings new 
technologies to airports and its stakeholders for consideration. 
Stakeholders then decide which technologies to test. In terms of 
deployment, once new technologies are tested and approved, the airport 
is heavily involved in the process.
    Question 6. What solutions do you believe TSA should focus on in 
the medium- and long-term to usher in a new era of security screening 
at airports?
    Answer. In the mid-term, TSA should continue to advance automation 
using biometrics in passenger screening and find ways to automate 
oversized baggage screening. As more airlines and companies such as 
Clear continue to test and implement biometrics for passenger check-in, 
we should expect that this service would eventually be tested as part 
of the passenger screening process.
    In the long term, one focus should be to improve exit lane 
technologies. Currently, few options exist for automation of passenger 
exiting from secured to unsecured areas of the airport. Our exit lanes 
are staffed 24/7 and several are ADA-challenged. Finding an exit lane 
technology that reduces the required staffing while improving overall 
airport security would be beneficial.
    Question 7a. Based on the experience of your airport, how well is 
TSA positioned as an agency to spur innovation at the checkpoint?
    Answer. All stakeholders share in the responsibility of spurring 
innovation, but the airport does not see TSA's role to encourage such 
innovation. Instead, we believe TSA should focus its efforts on 
ensuring that any innovation being introduced can enhance security and 
improve efficiencies.
    Question 7b. What role and responsibility should stakeholders have 
in regards to such innovation?
    Answer. All stakeholders have a role to play when it comes to 
innovation. Airlines continue to improve efficiencies and enhance 
customer service--all while lowering costs. In finding those 
efficiencies, airlines provide recommendations on what new technologies 
may offer the best passenger experience. An airport's role and 
responsibility should be to provide assistance and support with 
facility needs. Such was the case with the ASLs, as the airport 
assisted the TSA with infrastructure and facility needs.
    Question 8a. Do you believe that the Innovation Task Force has been 
focusing on the aspects of security technology that are most in need of 
attention?
    Answer. Yes. Based on recent terror attacks on public airports and 
long checkpoint lines experienced last year, we believe the Innovation 
Task Force has focused on the current needs of passenger screening.
    Question 8b. Are there other areas of the airport, such as checked 
baggage, in which technology needs to be improved but has not been a 
focus of the ITF?
    Answer. Yes, past deficiencies of the inline baggage system are 
being corrected with the EDS recapitalization program. This program 
will bring improvements in baggage scanning technology and the overall 
inline baggage system. However, we still need to improve baggage 
screening technologies to reduce alarm rates on liquids, gels, and 
aerosols. Such equipment improvements are necessary to increase the 
accuracy of inspections while decreasing overall time of a bag in the 
system.
    Questions From Chairman Michael T. McCaul for Jeanne M. Olivier
    Question 1. What do you believe to be the primary takeaways from 
the innovation lanes in place at your airport?
    Answer. The innovation lanes are a success in moving passengers 
faster through the screening queues and may reduce traveler frustration 
at delays from passengers who are unfamiliar with screening routines. 
The new lanes provide for several passengers to divest and load 
screening bins simultaneously, which means that the line is not held up 
by a single traveler. However, this benefit will only materialize as 
passengers become familiar with the new equipment and procedures. In 
other words, there is a learning curve. It appears that TSA staffing 
will still be required at the current levels for the checkpoints, but 
wait times may be reduced with improved throughput.
    Question 2. What are the primary challenges to implementing new 
screening technologies at airports, such as automated screening lanes?
    Answer. Funding for the lane equipment and space for the equipment 
will be key challenges for implementation of the new automated 
screening lanes, and funding would remain a primary challenge for 
implementing any other new screening technology. Another challenge has 
been passenger acceptance and behavior. Reconfiguration of the space 
and relocation of CCTV camera equipment etc. are additional 
considerations.
    Question 3. Do you think that TSA's Innovation Task force is well-
positioned to implement solutions from findings derived from the 
innovation lanes at your airport?
    Answer. The innovation lanes are a successful effort at Newark 
Liberty International Airport. We understand that TSA has collected 
data on staffing, configuration, and threat resolution scenarios, 
however those data findings have not yet been shared with us as the 
airport operator.
    Question 4. What are airports doing to support technology 
innovation at TSA and how do you perceive the relationship on this 
front between stakeholders and the agency?
    Answer. We and other airports vigorously support TSA innovation and 
the TSA's Innovation Task Force, and believe TSA is on the right path 
in this regard. Some airports and airline tenant partners have already 
paid for pilots of technology innovation. A number of our colleague 
airports have volunteered to serve as pilot centers for TSA innovation 
efforts. We hope that airports will have an even greater role in the 
checkpoint improvements including those airports that lack financial 
resources to fund the efforts.
    Question 5. What insight do you have into how TSA develops, 
procures, and deploys new technologies at airports? How can this 
process be made more effective?
    Answer. We have very little insight into how TSA develops, 
procures, and deploys new technologies at airports. It is our 
impression that the Federal procurement process is very burdensome and 
thereby limits the TSA's agility and piloting of new technology.
    Question 6. What solutions do you believe TSA should focus on in 
the medium- and long-term to usher in a new era of security screening 
at airports?
    Answer. In the short run, the TSA PreCheck program helps speed 
passengers effectively through screening and is an important component 
of the checkpoint operation. It needs to be greatly expanded through 
private sector and industry enrollment options. In the longer term, 
technology enhancements that allow passengers to pass through the 
checkpoint without stopping, taking off shoes, removing laptops from 
bags, or carrying beverages and food while at the same time improving 
security and detection are important.
    Question 7. Based on the experience of your airport, how well is 
TSA positioned as an agency to spur innovation at the checkpoint? What 
role and responsibility should stakeholders have in regards to such 
innovation?
    Answer. We are encouraged by the formation of the Innovation Task 
Force. It is a step in the right direction. It needs to be sustained 
with permanent funding and adequate staffing. It needs to ensure an on-
going vehicle for product and service providers to offer and 
demonstrate their innovative products and provide demonstration pilots 
for a wide breadth of such products.
    The checkpoint and the screening of passengers and their baggage is 
and should be the sole responsibility of the TSA. That said, we 
recognize that airports and terminal operators, and airlines can and 
have volunteered to support innovation and adaptation to address 
specific facility needs or enhance the customer experience. It is 
critical that airports be involved early on in any TSA innovation 
plans. TSA, as with any Federal agency, is burdened by limited funding 
and very constrained procurement processes.
    Question 8. Do you believe that the Innovation Task Force has been 
focusing on the aspects of security technology that are most in need of 
attention?
    Are there other areas of the airport--such as checked baggage--
where technology needs to be improved but has not been a focus of the 
ITF?
    Answer. The Innovation Task Force is a small staff of 24 with no 
dedicated funding and therefore efforts that require longer continuity 
may be impeded. The Task Force addressed the ``low-hanging fruit'' of 
screening efficiency and passenger throughput through the introduction 
of new lanes. What will be far more challenging is the development and 
introduction of more effective screening equipment such as the CT 
machines for the checkpoint, and other methods of detection of harmful 
liquids, and artfully concealed explosives. Certainly there are many 
areas warranting improved technology for security beyond the 
checkpoints at our airports, including such things as effective CCTV 
tracking of individuals throughout a terminal, monitoring for gun 
shots, and further work regarding explosive detection in public spaces.

                                 [all]


</pre></body></html>
